<html>
<title> - PENDING NOMINATIONS OF SARRI, KIMBALL, KENDALL, WASSMER, MURRAY AND KOTEK</title>
<body><pre>[Senate Hearing 114-369]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-369

  PENDING NOMINATIONS OF SARRI, KIMBALL, KENDALL, WASSMER, MURRAY AND 
                                 KOTEK

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATIONS OF KRISTEN JOAN SARRI, TO BE AN ASSISTANT SECRETARY OF 
 THE INTERIOR (POLICY, MANAGEMENT AND BUDGET); DR. SUZETTE M. KIMBALL, 
TO BE DIRECTOR OF THE UNITED STATES GEOLOGICAL SURVEY; MARY L. KENDALL, 
  TO BE INSPECTOR GENERAL AT THE DEPARTMENT OF THE INTERIOR; VICTORIA 
MARIE BAECHER WASSMER, TO BE UNDER SECRETARY OF ENERGY; DR. CHERRY ANN 
 MURRAY, TO BE DIRECTOR OF THE OFFICE OF SCIENCE AT THE DEPARTMENT OF 
ENERGY; AND JOHN FRANCIS KOTEK, TO BE AN ASSISTANT SECRETARY OF ENERGY 
                            (NUCLEAR ENERGY)

                               __________

                            OCTOBER 20, 2015
                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-943                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                  
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    KAREN K. BILLUPS, Staff Director
                PATRICK J. McCORMICK III, Chief Counsel
           ANGELA BECKER-DIPPMANN, Democratic Staff Director
                SAM E. FOWLER, Democratic Chief Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Reed, Hon. Jack, a U.S. Senator from Rhode Island................     3
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     4
Capito, Hon. Shelley Moore, a U.S. Senator from West Virginia....     5
Manchin III, Hon. Joe, a U.S. Senator from West Virginia.........     5

                               WITNESSES

Sarri, Kristen Joan, to be an Assistant Secretary of the Interior 
  (Policy, Management and Budget)................................     7
Kimball, Dr. Suzette M., to be Director of the United States 
  Geological Survey..............................................    13
Kendall, Mary L, to be Inspector General at the Department of the 
  Interior.......................................................    20
Wassmer, Victoria Marie Baecher, to be Under Secretary of Energy.    30
Murray, Dr. Cherry Ann, to be Director of the Office of Science 
  at the Department of Energy....................................    34
Kotek, John Francis, to be an Assistant Secretary of Energy 
  (Nuclear Energy)...............................................    39

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     4
Capito, Hon. Shelley Moore:
    Opening Statement............................................     5
Kendall, Mary L.:
    Opening Statement............................................    20
    Written Testimony............................................    22
    Responses to Questions for the Record........................   150
Kimball, Dr. Suzette M.:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Responses to Questions for the Record........................   129
Kotek, John Francis:
    Opening Statement............................................    39
    Written Testimony............................................    41
    Responses to Questions for the Record........................   217
Manchin III, Hon. Joe:
    Opening Statement............................................     5
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Murray, Dr. Cherry Ann:
    Opening Statement............................................    34
    Written Testimony............................................    36
    Responses to Questions for the Record........................   205
Reed, Hon. Jack:
    Opening Statement............................................     3
Sarri, Kristen Joan:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    79
Vitter, Hon. David:
    Letter for the Record........................................    48
Wassmer, Victoria Marie Baecher:
    Opening Statement............................................    30
    Written Testimony............................................    32
    Responses to Questions for the Record........................   193
Wyden, Hon. Ron:
    Letter for the Record........................................   227

 
  PENDING NOMINATIONS OF SARRI, KIMBALL, KENDALL, WASSMER, MURRAY AND 
                                 KOTEK

                              ----------                              


                       Tuesday, October 20, 2015

       U.S. Senate Committee on Energy and Natural 
                                          Resources
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here this morning to consider a total of six 
nominations before the Committee, three for each of the 
Departments that are under our jurisdiction.
    For the Department of Energy we have Dr. Cherry Murray to 
be the Director of Office of Science, Ms. Victoria Wassmer to 
be the Under Secretary of Energy, and Mr. John Kotek to be the 
Assistant Secretary for Nuclear Energy.
    For the Department of the Interior we have Ms. Mary Kendall 
to be Inspector General (IG), Dr. Suzette Kimball to be 
Director of the U.S. Geological Survey (USGS), and Ms. Kristen 
Sarri to be the Assistant Secretary for Policy, Management and 
Budget.
    I have said before this Committee that Secretary Moniz, in 
my opinion, is doing a good job at the Department of Energy. I 
do not necessarily agree with everything, but he works with us. 
He listens to us, and I think that he deserves to have a team 
in place to support him.
    Unfortunately, I am not able to say the same when it comes 
to the Secretary of the Department of the Interior. Instead, 
the Interior Department's record has been very frustrating, 
particularly if you are an Alaskan. We are seeing decisions out 
of the Department of the Interior that are really destroying 
our hope to be independent as a state.
    Ms. Sarri, the Interior Department describes the position 
that you have been nominated for as providing overall policy 
direction, leadership, guidance and assistance on a broad range 
of management and operational issues. I would say that the 
Department needs serious help in those areas given the repeated 
policy disappointments that we are seeing in my state.
    We had one bit of good news when the President came to the 
state in August when he made the decision to rename Mt. 
McKinley as Denali. We appreciated that.
    But Interior has also closed off half of our national 
petroleum reserve which was specifically designated for oil 
production. It has stalled projects in the NPRA that would help 
restore throughput in our TransAlaska pipeline system. It has 
effectively locked nearly all of ANWR up as permanent 
wilderness despite opposition from 70 plus percent of Alaskans.
    I am certainly not going to forget the heartless decision 
that Interior made to deny King Cove an 11-mile, life-saving 
road nearly two years ago or the absolute lack of assistance 
that Interior has provided since then as we have seen 32 more 
Medivacs from that community.
    We have had more recent examples that get my attention in a 
very, very strong way. A few weeks ago the deteriorating 
regulatory environment played a key role in Shell's decision to 
abandon seven years of work and $7 billion in investment in the 
offshore Arctic. And just this past Friday, Interior rejected 
lease extensions and canceled the offshore sales that are 
scheduled for 2016 and 2017.
    If you are an Alaskan and you are reading the headlines, 
you have to wonder what is going on within Interior. Why do 
they have it out for us? How can Interior set up a regulatory 
regime that prevents companies from having commercially viable 
exploration programs and then claim that it shows a lack of 
interest somehow in the Arctic?
    So Ms. Sarri, this is a long way of saying that you are 
going to need to convince me that you are part of the solution 
and not part of the problem for Alaska at the Interior 
Department.
    I have had good discussions with Ms. Kendall, but I am 
attempting to reconcile two conflicting impulses when it comes 
to this particular nomination. I strongly believe that Interior 
needs a permanent IG. I am disappointed the Administration has 
let the position go unfilled for six and a half years, but I am 
also committed to ensuring that the individual that we confirm 
is fully independent, with good judgment in difficult 
situations and a firm grasp of the responsibilities of an 
Inspector General, not only to the Secretary but to Congress as 
well. The law requires an IG to meet her independent 
obligations to Congress. While we expect that the IG always 
approach her work with civility, she must never compromise her 
independence.
    Ms. Kendall, I am sure you understand that the bar for an 
IG is high, especially as your confirmation would be tantamount 
to a lifetime appointment. The tenure that you have been 
involved with us for in this position has been marked by 
controversy, so you will hear legitimate questions raised today 
as to whether or not you are the right fit for the permanent 
positions.
    For the purposes of the Committee here this morning, we are 
going to be hearing again from all six of the nominees. Several 
of our colleagues will also introduce the candidates. There is 
a vote on the floor scheduled for 11 o'clock.
    In terms of the order here this morning we will first hear 
from Senator Reed. After we hear from Senator Reed, who will 
introduce Ms. Sarri, our fellow Committee members Senators 
Capito and Manchin will introduce Dr. Kimball. After those 
introductions we will ask the nominees to come forward, and 
then nominees will be invited to introduce their family members 
or any guests that are present. After those introductions I 
will swear in the witnesses, we will have a short statement 
from each nominee and then when the vote is called we will 
assess where we are. I would like to keep moving throughout the 
hearing this morning without taking a break, but we will assess 
that at the 11 o'clock hour.
    With that, I would like to turn to our colleague, Senator 
Reed, from Rhode Island. Welcome to the Committee. I know you 
are a busy Senator this morning as well, so we appreciate you 
coming by to make the introductions.

  STATEMENT OF HON. JACK REED, U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Thank you very much, Madam Chairman, Senator 
Cantwell, members of the Committee. I am delighted to be able 
to introduce Kris Sarri, the President's nominee to the 
Department of the Interior as Assistant Secretary of Policy, 
Management and Budget. Kris is joined today by her mother, 
Rosemary, her sister, Cathy, her niece, Gabriella, and her 
nephew, Alex, and I extend my warmest welcome to all of them.
    Kris is a native of Michigan. She first began service on 
Capitol Hill in 2001 as the Legislative Director of the 
bipartisan Northeast Midwest Senate Coalition which I chaired 
along with Senator Collins, and in that capacity she brought 
thoughtful, bipartisan, analytical skills to bear on a daily 
basis.
    She was somebody who worked both with Senator Collins and I 
very well and very effectively, and I think she will do that in 
the Department of the Interior. She always, indeed, made sure 
there was a thorough, thoughtful basis for the policies that 
the coalition proposed.
    After her work there, I was so impressed I asked her to 
join my office. She did. She was a key member of my team with 
respect to appropriations, natural resources and energy issues. 
Superbly gifted, talented, intelligent, thoughtful, asks the 
right questions and with a temperament that really inspired, 
not only confidence but collaborations. So I cannot think, 
again, of a worthier nominee that would come before this 
Committee.
    After leaving my office she was so good she was plucked 
away by the Department of Commerce where she was a Deputy 
Director of Policy and Strategic Planning and a principle 
advisor to the Secretary of Commerce. I think, once again, 
because of her success there, she was identified as someone who 
could add skill and expertise to the Office of Management and 
Budget. She served there as the Director of Legislative 
Affairs. Once again, contact with offices on both sides of the 
Hill in a bipartisan, thoughtful manner, and she really 
distinguished herself. She understands how policy works. She 
understands it is about principle, collaboration and 
compromise. She is particularly gifted when it comes to the 
issues in the environment that are so important to the mission 
of the Department of the Interior.
    I know she is going to do a superb job, and I thank you 
very much, Madam Chairman, for having this hearing.
    For my colleagues, she has got the temperament, the 
collaborative spirit, the tactical skills and the sincere 
commitment to serve the public interest with the highest 
standards. With that, I would urge the Committee's support, and 
once again, thank the Chairwoman for her gracious hospitality.
    Thank you, Madam.
    The Chairman. Thank you for joining us, Senator Reed.
    Senator Cantwell? I did not mean to skip over you.
    Senator Cantwell. That is okay.
    The Chairman. But felt that we should get our colleague 
here in and out of the Committee. I apologize, and I defer to 
you at this time.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. That is quite alright. We appreciate our 
colleague being here and speaking on behalf of the nominee.
    I thank the Chair for scheduling what I consider to be an 
important hearing and welcome all six of the nominees that are 
before us today because these are important positions.
    We have six nominees whose work really is the underpinning 
of the missions of two of our departments that this Committee 
has jurisdiction over. We have before us nominees for the top 
management positions for the Department of the Interior and the 
Department of Energy, and I consider these key, essential 
people to helping our agencies work. We have the leads of both 
agencies' premier science groups, and they provide very 
important scientific information and research necessary for the 
Departments to help carry out their missions.
    In addition, we have the head of the Nuclear Energy Office, 
who is responsible for designing safe nuclear reactors for the 
future and also finding a path forward for disposing of the 
waste from our current and past civilian and defense nuclear 
programs.
    Finally, we have the Inspector General for the Department 
of the Interior, who is responsible for ensuring the integrity 
of the Department's diverse and important operations.
    We are fortunate, I believe, to have six highly qualified, 
experienced nominees in front of us. Four of the six 
individuals have actually been performing the functions of 
these offices to which they are nominated in their current jobs 
and as the Principal Deputies to those offices--three of them 
for more than a year, so they have already demonstrated their 
fitness and ability to serve in the positions to which they 
have been nominated. Indeed, the Committee approved Dr. 
Kimball's nomination last year.
    I look forward to hearing from all of these nominees this 
morning, and I know that my colleagues will have great 
questions for each of them. So thank you for helping us move 
these important positions.
    The Chairman. Thank you, Senator Cantwell.
    At this time I would ask the six nominees to come forward 
and we will have introductions, again, as I mentioned from 
Senator Capito and Senator Manchin for Dr. Kimball.
    Senator Capito, if you would like to proceed with your 
introduction?

STATEMENT OF HON. SHELLEY MOORE CAPITO, U.S. SENATOR FROM WEST 
                            VIRGINIA

    Senator Capito. Thank you, Madam Chair.
    I apologize in advance for my voice or lack of, so this is 
probably a good thing I have no voice. I am very pleased to 
join my colleague, Senator Manchin, in introducing Dr. Suzette 
Kimball today. I met her in April when she came to visit and 
talk about her position and her nomination to be Director of 
the USGS.
    I wanted to highlight a little bit about, how I feel the 
USGS really impacts a small state like West Virginia and how 
appreciative we are of their efforts.
    USGS helps to identify coal and mineral reserves, monitor 
water quality and provide accurate mapping which has been 
incredibly important throughout Appalachia. The scientists and 
researchers at USGS work to help keep our country safe from 
national disasters by monitoring earthquakes, wind, wildfires, 
volcanoes and their warning systems provide real-time 
information in times of crisis. Also, the USGS network of 
stream gauges throughout West Virginia and the United States 
are an important resource that helps our kayakers and our 
whitewater rafters make the most of their trips down river, 
helps fishermen find the best place to cast, helps engineers 
design bridges that can withstand floods and helps cities and 
towns better manage their water supplies.
    The USGS played a pivotal role in helping the West Virginia 
Department of Environmental Protection respond to the January 
2014 Elk River chemical spill by collecting water samples and 
performing rapid analysis.
    I know that Dr. Kimball, in her past, has accumulated much 
valuable expertise and experience that she will bring to this 
position and that will benefit not just those of us in West 
Virginia but across the country. And I welcome her here today 
as a fellow West Virginian.
    Thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Manchin?

   STATEMENT OF HON. JOE MANCHIN III, U.S. SENATOR FROM WEST 
                            VIRGINIA

    Senator Manchin. Let me just say that what my colleague and 
my friend, Senator Capito, has said is all accurate and very 
true. I am also pleased to be able to speak on Dr. Kimball's 
behalf. She has lived in West Virginia for 17 years and has 
served as a Deputy Director of the U.S. Geological Survey at 
the Department of the Interior since 2010.
    Dr. Kimball and I share a passion for the rich history of 
our state and dedication to public service. She is an active 
member of the Eastern Panhandle's farm land and historic 
preservation communities. In fact, she and her husband, Curt, 
live in a White House Farm. It is a local landmark built in the 
1740's and used during the Revolutionary War to aid the 
American troops. Their farm was even surveyed by George 
Washington, so it is pretty special.
    Beyond our personal connection Dr. Kimball continues to 
impress me with her dedication to the scientific mission of the 
U.S. Geological Survey. The USGS is not a partisan agency. I 
repeat, not a partisan agency and issuing burdensome 
regulations, instead they provide crucial, impartial 
information and added to the Federal agencies and to the 
public. As Senator Capito just mentioned, she is, they were 
greatly involved in helping us during the historic effects of a 
spill in the Elk River that affected 300,000 West Virginians 
for quite some time. So I really appreciate her and her 
interest and involvement in that effort.
    I think I speak for all West Virginians when I say I am 
delighted Dr. Kimball has chosen West Virginia as her home, and 
I am grateful for her service.
    I would also like to remind this Committee that in June 
2014 we approved her nomination by unanimous voice vote with 
not one dissention, so she has been at this for a while. I 
think it is time that we move on, if you will.
    She is doing the job. She has not changed one bit. She is 
the same Suzette Kimball that she was a year ago and she has 
been for quite some time. She will serve us very ably and 
capably.
    So I appreciate, very much, the opportunity to speak on her 
behalf and hope that all the Committee would receive her as we 
know her.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    At this time I would invite any of you at the table to 
introduce any family members that you might like to present 
before the Committee, and after that we will swear you each in.
    If we want to begin at this end, Ms. Sarri.
    Ms. Sarri. Thank you very much, Senator.
    I am so happy to have my family here with me today. I have 
my mom, Rosemary, who is sitting right there; my niece, Gabby; 
my nephew, Alex; and my sister, Cathy, with me.
    The Chairman. Good. Well, welcome to all of you.
    Ms. Kimball?
    Dr. Kimball. Thank you very much, Senator.
    I am really honored to be able to introduce my husband, 
Curt Mason; our daughter, Michelle Muerr; our close family 
friend, Lisa Herman; and her son, Aaron, who is already an 
accomplished political analyst. [Laughter.]
    The Chairman. Ahh, very good. We might need his help.
    Welcome to all of you.
    Ms. Kendall?
    Ms. Kendall. Thank you, Madam Chairman.
    I am pleased to introduce my daughter, K.J. Adler, who is 
also my best friend.
    The Chairman. Great, it is nice to have you here before us 
as well.
    Ms. Wassmer?
    Ms. Wassmer. Thank you, Madam Chairman. I would like to 
introduce my mother, Viola Becker; my husband, Franklin 
Wassmer; and my son, Christophe Wassmer, who were able to join 
me today.
    The Chairman. Good to have the family here.
    Ms. Murray?
    Dr. Murray. Thank you, Madam Chairman.
    It is my pleasure to introduce my sister, Nancy Murray, and 
her husband, Brad Curtis, who come here from Tucson, Arizona.
    The Chairman. Great, long way to come, good support.
    Mr. Kotek?
    Mr. Kotek. Thank you, Chairman. I am sorry to report my 
wife and school age children are back home in Boise. 
[Laughter.]
    Where they're attending to their studies, so.
    The Chairman. If they are in school that is a good thing. 
We appreciate that.
    At this time I would ask each of you to rise. The rules of 
the Committee which apply to all nominees require that you be 
sworn in connection with your testimony. Please stand and raise 
your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    [All nominees answer, I do.]
    The Chairman. Before you begin your statement I will ask 
you three questions addressed to each nominee before this 
Committee.
    Will you be available to appear before the Committee and 
other congressional Committees to represent departmental 
positions and respond to issues of concern to the Committee?
    [All nominees answer, I will.]
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create the appearance of such a conflict should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    [All nominees answer, no.]
    Mr. Kotek. No, Mr. Chairman.
    The Chairman. Is that a no by each of you? I was not sure. 
[Laughter.]
    No.
    Are you involved or do you have any assets held in blind 
trusts?
    [All nominees answer, no.]
    The Chairman. Okay.
    Go ahead, be seated. Thank you very much.
    At this time I would ask that each of you present a short 
statement to the Committee. Your full written statements will 
be included as part of the record. After statements from each 
of you, we will have an opportunity, as members of the 
Committee, to present our questions to you.
    With that, Ms. Sarri, if you would like to proceed?
    Thank you.

 STATEMENT OF KRISTEN JOAN SARRI, TO BE AN ASSISTANT SECRETARY 
        OF THE INTERIOR (POLICY, MANAGEMENT, AND BUDGET)

    Ms. Sarri. Thank you very much and good morning.
    Thank you, Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee for welcoming me to the Committee this 
morning. It's a privilege to be considered by this Committee as 
the President's nominee for Assistant Secretary for Policy, 
Management and Budget (PMB) at the Department of the Interior.
    I want to thank Senator Reed for his support of my 
nomination and throughout my career. It's his dedication to 
public service, his work to improve the lives of others and his 
work ethic that really serve as a model for me.
    I'm very pleased, also, to introduce my family, my mom, 
Rosemary; my sister, Cathy; my niece, Gabby; and my nephew, 
Alex.
    My mom is a constant supportive inspiration to me. At the 
age of 89, she is still an active social worker and she still 
comes with me to Michigan home football games. So she's an 
involved member of her community. She, at a very early age, 
instilled in me the benefits and the need to engage in public 
service.
    I also want to acknowledge my dad, who was a Greek 
immigrant to this country after World War II. He fell in love 
with our national parks, and every summer he used to pack up us 
in the family station wagon and take us on a new adventure out 
West. It was really these adventures out West that inspired my 
love of the great outdoors, and it's something that I hope I'd 
pass along to my niece and to my nephew.
    My family has been a constant source of support for me, and 
I'm always thankful to them for their love.
    Finally, I want to thank members of this Committee and 
their staff for taking time to meet with me. If confirmed, I'm 
looking forward to continuing the conversations that we had and 
strengthening the vital relationship between this Committee and 
the Department.
    Throughout my career I've sought out opportunities to 
promote community development, natural resource stewardship and 
job creation by building partnerships and working to strengthen 
the effectiveness of government. Prior to joining the 
Administration, as Senator Reed mentioned, I have spent about 
nine years on Capitol Hill working for the bipartisan, 
Northeast Midwest Senate Coalition, Senator Reed and also the 
Senate Commerce Committee, where I was fortunate to have 
Senator Cantwell as my Subcommittee Chair.
    In each of these roles I had the opportunity to work with 
Senators who focus really on how government should work best to 
serve the American people while bolstering our economy and 
protecting the environment. I learned from them the value of 
strong, bipartisan cooperation and the need to gain other 
perspectives when developing policy. It's these lessons and 
experiences that I carry with me.
    Now as this Committee well knows, the Department of the 
Interior is a significant contributor to our nation's economy. 
And Interior has special trust responsibilities to American 
Indians, Alaska Natives, Native Hawaiians and affiliated Island 
communities. It's also responsible for conserving and 
protecting our natural resources and our cultural resources. So 
I view PMB's role as supporting the Secretary, Deputy Secretary 
and our bureaus as we work to drive impacts for the American 
people in our diverse areas of responsibility.
    PMB does this in several important ways. First, it works to 
ensure the sound stewardship of Interior's fiscal resources. 
Second, it works to increase the efficiency of our programs and 
reduce costs so we can invest more in mission. And third, 
through the management of the Department wide programs and 
policies, PMB helps with coordination and cohesion throughout 
the Department.
    For the past year I have served as the Principal Deputy 
Assistant Secretary for PMB, and I've had the privilege to work 
with a team of highly skilled and committed staff. If confirmed 
I hope to continue to strengthen the Department in a few key 
areas.
    First, Interior's work force. It is large, geographically 
diverse and increasingly eligible to retire. If confirmed I 
would want to work on efforts to increase our work force 
diversity in order to deliver mission effectively for the 
American people.
    Second, Interior is committed to improving access to public 
data with preferred transparency and also to improve resource 
management. For example, we are working with our partners in 
industry and academia and across the Federal Government to make 
public land data more available to help build apps, support 
tourism and improve customer service. And if confirmed I would 
like to continue with these open data efforts.
    Finally, PMB is responsible for Department-wide programs 
from wildland fire management to the cleanup of contaminated 
sites to emergency management. It also plays a key role in 
coordinating across bureaus and with other agencies on policies 
from invasive species, to land conservation, to youth 
engagement. And if confirmed I would welcome the opportunity to 
work with this Committee and the Congress on these issues.
    Again, I want to thank the Committee for considering my 
nomination, and I look forward to answering your questions.
    [The prepared statement of Ms. Sarri follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
    The Chairman. Thank you, Ms. Sarri.
    Dr. Kimball?

  STATEMENT OF DR. SUZETTE M. KIMBALL, TO BE DIRECTOR OF THE 
                UNITED STATES GEOLOGICAL SURVEY

    Dr. Kimball. Thank you, Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee. I'm honored to appear 
before you today as President Obama's nominee to be Director of 
the USGS.
    And I thank you, Senators Manchin and Capito, for your kind 
introduction. I'm very proud to be a resident of wild and 
wonderful West Virginia.
    I would also like to acknowledge and honor my family, those 
here today and those watching at home. One cannot accomplish 
these types of jobs without the full support of one's family.
    I was raised to not only value public service, but to also 
see it as a responsibility. My father and brother had military 
careers. My mother was a teacher. Most of my cousins have 
served in the military or civil service and my husband 
dedicated his career to civil service, so for me, public 
service is the family business.
    Although I did not have a childhood steeped in outdoor 
experiences that set the stage for my career path, I had the 
good fortune to take a geology course from a remarkable 
educator, Dr. Gerry Johnson. His compelling lectures engaged my 
imagination and passion for understanding the processes that 
drive Earth systems and the impacts of natural events.
    My PhD program in Earth Sciences at the University of 
Virginia showed me the value of integrated environmental 
sciences, a context that forces one out of narrow, academic 
boundaries and requires competence in a spectrum of 
disciplines. This perspective will serve me well if confirmed 
as USGS Director as the questions we face today also transcend 
traditional academic fields and asks us to understand not only 
the geologic foundation in operative physical processes but 
also the potential impacts to biological systems and to the 
human environment.
    I've had the good fortune to serve in both academia and the 
Federal Government. My years in the National Park Service gave 
me an understanding of the pressures that land managers face 
and the types of information that can be most useful to them. 
This experience gives me a unique perspective to support and 
partner with the entire Department.
    Since coming to the USGS in 1998 I've had the opportunity 
to see the breadth and depth of this outstanding organization 
from many perspectives. It's noteworthy that we do not issue 
regulations nor do we manage resources. The scientific nature 
of the USGS, its national perspective and its non-regulatory 
role enable us to be both policy relevant and policy neutral.
    Since its founding in 1879, the USGS has made enormous 
contributions to the health and well-being of the country and 
the world as well. These achievements include the science that 
has delineated the mineral and energy resource base in the 
nation, that helps protect lives and livelihoods from the 
effects of natural hazards, that enable safe public water 
supplies, that supports restoration of ecosystems and that 
provides assistance to other nations for resource and hazard 
issues.
    Our society faces pressing issues that science can and must 
help address, challenges like ensuring sustainable development 
of natural resources, dealing with climate change, coping with 
natural disasters and ensuring water and food security.
    We live in a global economy. Understanding the worldwide 
distribution of both resources and risks is essential to the 
country's security and economic health. The USGS has made 
progress to address these issues including regional landslide 
assessments and earthquake early warning system. And we 
continue to develop nationwide, 3D elevation data, new hyper 
spectral technologies to map mineral distributions. And we 
brought new life cycle analyses to critical minerals analysis. 
We have advanced the national assessment of groundwater 
availability. We have developed new strategies to contain the 
Asian Carp and other invasive species. And we've contributed to 
the science needed to understand critical ecosystems such as 
the sagebrush steppe. In all of these efforts we appreciate the 
support of Congress and in particular, this Committee.
    Looking to the future the USGS needs to continue these 
efforts for which we have unique capabilities, but we also need 
to be responsive to emerging needs. We are increasing the 
involvement of sociologists and economists in our studies in 
order to ensure that our science is relevant to the public.
    We're providing new technologies to protect public health 
and safety and new tools for communities to become resilient in 
the face of challenges such as changing climate or water 
scarcity. And we are engaging young scientists to be part of 
our future, a future that will be worthy of our long history of 
achievement for the nation and the world.
    I'm deeply grateful to Secretary Jewell and President Obama 
that they've chosen to nominate me to lead this outstanding 
scientific organization. If confirmed, I look forward with 
working with you to address the challenges that face our 
nation.
    Thank you very much for the opportunity to appear before 
you. And I'll be happy to respond to questions.
    [The prepared statement of Dr. Kimball follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
    
    The Chairman. Thank you, Dr. Kimball.
    Ms. Kendall?

 STATEMENT OF MARY L. KENDALL, TO BE INSPECTOR GENERAL AT THE 
                   DEPARTMENT OF THE INTERIOR

    Ms. Kendall. Thank you, Madam Chairman, Ranking Member 
Cantwell and members of the Committee. I'm honored to be 
considered by you for confirmation as the Inspector General for 
the Department of the Interior.
    I have been privileged to lead the OIG for the past six and 
a half years during which time the OIG has had 195 convictions, 
$4.5 billion in criminal fines, penalties and restitution, over 
$119 million in questioned costs and $55 million in funds put 
to better use. On average over the past five years the OIG for 
Interior ranked fifth for return on investment among the 72 
OIGs.
    My leadership style underpinned by employing dignity and 
respect has proven effective in motivating the OIG work force 
to conduct meaningful work, reduce influential reports and 
affect significant change in the programs and operations of 
Interior and which put the OIG in the top 15 percent of the 
best places to work in 2014.
    Recently I met with many of you and/or your staff. We've 
discussed many issues, some important to your constituents, 
some of which you embrace with enormous passion and some that 
have made my nomination subject to controversy and criticism. 
I've tried to address the controversies that have followed me 
from the House Committee on Natural Resources. Whether I have 
done so to any of your satisfaction, I do not know, what I do 
know is that I have been true to myself, my principles, my best 
judgment and the law.
    My personal style to engage in civil discourse, even when 
addressing difficult issues, has been criticized by some as 
being too accommodating. Civility, in my experience, however, 
is not an accommodation but rather a strong and effective tool 
in communicating with and holding DOI accountable.
    Coming to this hearing I have both the benefit and the 
burden of having a track record as the acting Inspector 
General. And as such, I have made certain legal, policy and 
management decisions that have not always been well received by 
some Members of Congress, of my staff, of the public and even 
officials of the Department. Although I sometimes joke, I am 
rather serious when I say, if I am making everyone a little 
unhappy, I'm probably doing my job.
    As with many things in life, having the benefit of 20/20 
hindsight, I may have made some of those decisions differently. 
Yet in the moment I have always acted on my conscience and 
principle, guided by the best information available at the time 
with the advice of trusted and tested advisors and with 
integrity, independence and objectivity as my guides. I have 
always conducted myself in the best interest of the OIG and of 
the greater IG community both of which have provided me 
unflagging support throughout my entire ten years in the IG 
community.
    I do not expect to convince you by my words here alone 
today of my independence and objectivity, rather I point to 
some of the most influential work the OIG has done since 2009 
which I describe in my much more detail in my written 
testimony. The depth and breadth of the programs in DOI are 
both vast and complex. Under my leadership the OIG has focused 
its attention and resources on the highest risk and highest 
priority issues in the Department and to address the areas of 
greatest vulnerability to fraud, mismanagement and misuse of 
Federal funds.
    Madam Chairman and members of this Committee, I sit before 
you today as a career civil servant for over 29 years. I 
sincerely believe that public service is a public trust 
requiring me to place loyalty to the Constitution, the law and 
ethical principles above private gain. I have no other ambition 
than to continue my public service with dignity and respect for 
our employees and for our stakeholders. I believe in the 
mission of the Inspectors General. I am committed to the OIG 
for Interior and if confirmed, I will continue to do the very 
best job I can to lead this respected organization in its 
ongoing efforts to prevent and detect fraud, waste, abuse and 
mismanagement in the Department of the Interior.
    Thank you for your attention and consideration. I'd be glad 
to answer questions.
    [The prepared statement of Ms. Kendall follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
    The Chairman. Thank you, Ms. Kendall.
    Ms. Wassmer?

   STATEMENT OF VICTORIA MARIE BAECHER WASSMER, TO BE UNDER 
                      SECRETARY OF ENERGY

    Ms. Wassmer. Good morning, Chairman Murkowski, Ranking 
Member Cantwell and other members of the Committee. It's my 
honor to appear before you today as President Obama's nominee 
for the Department of Energy's Under Secretary for Management 
and Performance.
    If confirmed I will work every day to support Secretary 
Moniz and to advance the Department's critical efforts to 
ensure America's security and prosperity by addressing its 
energy, environmental and nuclear legacy issues through strong 
performance and management practices.
    Before I begin I'd like to thank my husband, Franklin, and 
my two sons, Alexander and Christophe, two of whom are here 
with me today, along with my mother, Viola Becker. I would not 
be here without their encouragement and support. My two sons, 
now both in high school, routinely challenge me to grow in ways 
I never could have imagined, and they also make sure I laugh. 
My husband, Franklin, who has worked for the last 20 years in 
the local public charter school movement, grounds me every day 
to not only do meaningful work, but to live a meaningful life.
    Our commitment to community and public engagement, 
instilled in us by our parents, has been the cornerstone of our 
own family. Commitment to public engagement is what propelled 
me to spend the majority of my 25-year career in public 
service, including 17 years in management and leadership 
positions within the Federal Government. Most notably, I 
currently serve as the Assistant Administrator for Finance and 
Management at the Federal Aviation Administration. Previously I 
served as the Chief Financial Officer and Vice President for 
Administration and Finance at the Millennium Challenge 
Corporation (MCC).
    At the MCC I was responsible for realigning corporate 
services to better support the agency's mission. Within my 
first six months I instituted an annual customer satisfaction 
survey as well as a new performance management system to 
increase employee engagement. We saw a double digit improvement 
in 2011 from our 2010 customer survey results as well as a 
double digit improvement in my team's FedView survey results 
over that same period. I reconstituted an executive oversight 
board, tightened our internal controls and improved management 
practices, all of which helped to optimize budget resources to 
better support the mission of the MCC which is to reduce 
poverty through economic growth.
    In August 2011 I became the FAA's first ever Assistant 
Administrator for Finance and Management overseeing the 
transition of the agency's finance, acquisitions, information 
technology and regions and center operations into an integrated 
shared services model.
    Today I am responsible for the efficient and effective 
performance of these critical services and support of the 
agency's aviation safety mission. I also manage the FAA's $16 
billion budget and lead the agency's efforts to identify cost 
savings, leverage technology and ensure critical acquisitions 
remain on cost and schedule.
    Over the last four years my team and I employed strategic 
planning, performance and program oversight to help the agency 
save more than $360 million through our cost control program. 
This included nearly $130 million in savings through our 
strategic sourcing program. We also reduced the agency's 
administrative footprint and exceeded our environmental goals 
in fleet and petroleum usage.
    In addition to receiving clean audit opinions each year 
during my tenure, we have led the agency in achieving the CEAR 
awards for the FAA's annual performance and accountability 
reports.
    We have also implemented an enterprise-wide, integrated IT 
strategy, decreased IT contract costs by more than $30 million, 
deployed a new cloud-based email system, implemented a cloud 
strategy utilizing an innovative brokerage model contract and 
consolidated our IT help desks from seven to one. We did this 
all while addressing increased cyber attacks.
    I believe my experience and formal education have prepared 
me well to take on this new role at the Department of Energy. I 
have a deep understanding of what it takes to be an effective 
leader in a government agency, to be a responsible steward of 
the taxpayer's resources and to create and transform an 
organization to be high performing.
    I believe in working collaboratively and accountably as a 
team creating an environment that brings out the best in 
everyone as we work together to take programs to new levels.
    Growing up my parents instilled in me the belief that 
public service is a noble calling and it's an honor to be able 
to serve others. If confirmed as the Under Secretary I will 
work every day to be worthy of the privilege.
    Thank you and I welcome any questions you may have.
    [The prepared statement of Ms. Wassmer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. Thank you, Ms. Wassmer.
    Dr. Murray, welcome.

   STATEMENT OF DR. CHERRY ANN MURRAY, TO BE DIRECTOR OF THE 
         OFFICE OF SCIENCE AT THE DEPARTMENT OF ENERGY

    Dr. Murray. Chairwoman Murkowski, Ranking Member Cantwell 
and members of the Committee, thank you for the opportunity to 
appear before you today as you consider my nomination for the 
position of Director of the Office of Science at the Department 
of Energy. It's an honor to be here and to be nominated by 
President Obama and supported by Secretary Moniz.
    The DOE Office of Science manages ten national 
laboratories, many major scientific user facilities and it's 
the largest supporter of physical sciences research in the U.S. 
If confirmed I look forward to working with this Committee to 
maintain the nation's leadership in science.
    I was born in Fort Riley, Kansas. My father was in Officer 
Training. He was also in civil service all his life. He spent 
his career as a diplomat and alternately in the Army. Until I 
was 17 I moved with my family almost yearly. We lived in Japan, 
Pakistan, South Korea and Indonesia. My parents were both 
artists, and I assumed I'd also be an artist. I'd spent the 
first two years of high school in Alexandria, Virginia. In 
ninth grade I had an inspiring chemistry teacher. I was 
enthralled by doing lab experiments and by the beauty of math 
that explained the science. For me, it was like creating order 
from chaos. I was hooked and I decided right then to be a 
scientist and to keep art as a hobby.
    I attended MIT where I received my Bachelor's degree and 
Doctorate in Physics. I then spent 27 years at Bell Labs 
Research which was, at the time, one of the top places to do 
research in the world. At Bell Labs we focused on everything 
from basic science to applied engineering and product 
development and I rose to Senior Vice President managing 
research and development, inventing and innovating the future 
of telecommunications. During those years I experienced 
directly how breakthroughs in fundamental science lead to the 
most disruptive technologies in the market. I also learned that 
the transition from basic science to technology development and 
ultimately to new products is never easy and it is not a linear 
process. It is more of a spiral.
    In 2004, I became Deputy Director for Science and 
Technology at Lawrence Livermore National Laboratory and 
experienced how important science is as an underpinning of our 
national security. In 2009, I became Dean of the School of 
Engineering and Applied Sciences at Harvard.
    Having interacted with spectacular undergraduate and 
graduate students who eagerly want to solve problems that make 
a difference in the world, I am optimistic about our nation's 
continued science leadership.
    I was a member of over 20 national academy study committees 
including the Committee that wrote the Rising about the 
Gathering Storm report. I also served on the Presidential 
Commission on the Deepwater Horizon oil spill, and I now serve 
on the Congressional Commission to review the effectiveness of 
the national energy laboratories.
    As in all technology advances the major technology 
revolution that is happening right now in our energy system 
will be catalyzed by advances in science. In the past, as a 
nation, we could rely on the great industrial research labs. 
They could provide leading edge science relevant to technology 
and did, but industry is no longer doing as much fundamental 
science now. We must harness the enormous potential of the DOE 
national laboratories, working with our great research 
universities in collaboration with industry.
    I look forward, should I be confirmed, to leading the DOE 
Office of Science and the national laboratories it stewards and 
to be working with this Committee to ensure that the U.S. 
continues to be a leader in scientific advances and the 
translation of these advances into new technologies, important 
for our sustainable energy security, national security and 
economic growth.
    Thank you. I'd be happy to answer any questions.
    [The prepared statement of Dr. Murray follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
    The Chairman. Thank you, Dr. Murray.
    Mr. Kotek?

 STATEMENT OF JOHN FRANCIS KOTEK, TO BE AN ASSISTANT SECRETARY 
                   OF ENERGY (NUCLEAR ENERGY)

    Mr. Kotek. Chairman Murkowski, Ranking Member Cantwell, 
members of the Committee, thank you for the opportunity to 
appear today as you consider my nomination to be the Assistant 
Secretary of Energy for Nuclear Energy at the U.S. Department 
of Energy.
    I'm honored to have been nominated for this post by 
President Obama. I also deeply appreciate the confidence that 
Secretary Moniz has expressed by asking me to serve in this 
capacity. And I'm grateful for the statement of support for my 
nomination provided by Senator Risch and the Idaho 
Congressional Delegation.
    I'd like to start by thanking from the bottom of my heart, 
my wife, Denise. She's been extraordinarily supportive of me 
throughout our 21 years of marriage, and she understands 
completely the challenge we've been asked to undertake, having 
herself worked at DOE back in the 1990's.
    Now earlier this year I was appointed as Principle Deputy 
Assistant Secretary in DOE's Office of Nuclear Energy. This is 
actually my third stint as a DOE employee having started my 
career at DOE Headquarters in 1989 then rejoining DOE as Deputy 
Manager of the Idaho Operations Office from 2003 to 2006. 
Between my first two jobs at DOE I was on the staff at Argonne 
National Laboratory at the old Argonne West facility in Idaho 
which is now part of the Idaho National Lab.
    While I was born in Hawaii and raised in Massachusetts, 
I've called Idaho home since 1999. And I should note that 
during my time with Argonne in 2002 I served as the American 
Nuclear Society's Congressional Fellow working in the Office of 
Senator Jeff Bingaman when he chaired this very Committee.
    After leaving DOE in 2006 I went into the private sector 
advising clients on a wide range of energy and natural resource 
issues with the particular focus on the siting of controversial 
facilities. I believe that my facility siting experience 
coupled with my nuclear background served me well in my role as 
Staff Director for the Blue Ribbon Commission on America's 
Nuclear Future, a position I served in from 2010 to 2012.
    My time as Staff Director was truly one of the highlights 
of my career and not just because it gave me an opportunity to 
work for people like Co-Chairman Lee Hamilton and Brent 
Scowcroft, Senators Pete Domenici and Chuck Hagel, and of 
course, Dr. Ernest Moniz. The main reason my service was such a 
highlight was that it gave me an opportunity to help a 
bipartisan panel, made up of some of the best minds in the 
country, dig deep into a controversial issue and develop a set 
of recommendations that were unanimously adopted and widely 
accepted by individuals and organizations on all sides of the 
nuclear waste issue. I know that the Commissioners have been 
heartened by the work this Committee has done to incorporate 
the BRC recommendations into proposed legislation, and I'm 
eager to work with you and others to see the nation's nuclear 
waste management program advance and set a solid foundation for 
the program going forward.
    Looking at the mandate of the nuclear energy organization 
more broadly, I've long believed that nuclear energy can and 
should play an important role in meeting our twin objectives of 
meeting rising global energy demands while addressing the 
threat posed by emissions of carbon and other greenhouse gases. 
To be sure, nuclear energy isn't the only way of tackling this 
challenge and I believe the President's All of the Above energy 
strategy gives us the best chance of meeting carbon reduction 
goals both at home and abroad.
    In the nine months since I returned to DOE I've seen great 
opportunity for DOE to work with industry, universities, our 
national labs and with international partners, to ensure 
nuclear energy technologies can continue to meet current energy 
demands while providing opportunities for new nuclear energy 
supply in the intermediate and long terms. I'm particularly 
excited about the opportunities for technologies like small 
modular reactors and even more novel reactor technologies to 
provide safe, affordable, low carbon electricity and other 
energy products, potentially including processed heat, hydrogen 
production and desalination services.
    If I'm fortunate enough to be approved by this Committee 
and confirmed by the Senate, these are the kinds of areas that 
will be my focus.
    I also look forward to working with this Committee to 
identify additional opportunities to advance nuclear energy as 
part of our low carbon energy future. I hope to secure your 
support so that I might have that opportunity.
    Thank you, and I welcome any questions you may have.
    [The prepared statement of Mr. Kotek follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    The Chairman. Thank you, Mr. Kotek.
    Thank you, each of you, for your comments this morning, and 
again, your willingness to serve and your willingness to go 
through the gauntlet of questions that we will have for you 
this morning.
    Just for the information of members, my intention is to 
continue the committee process throughout this vote. I would 
ask that when the vote is called if you just leave and vote and 
then come back. After Senator Cantwell and I have asked our 
questions the first up on the Republican side is Senator 
Cassidy and he will be followed by Senator Franken--just so you 
know when to pop in and out.
    At this time I will proceed with the first round of five 
minute questions and direct my first one to you, Ms. Sarri.
    You have indicated that you have now been the Principal 
Deputy there at PMB for about a year or so, and that in this 
role there is a department-wide review coordinating across 
agencies which, of course, is necessary in this area. I 
mentioned in my opening remarks, and I think you might hear the 
frustration in the words, I am a little bit under the weather 
this morning, otherwise you would have heard a little more 
animation in my voice as well. So maybe you have been saved by 
a long airplane flight and a little bit of the flu.
    But there is a great deal of frustration in my state right 
now, not the least of which is coming from the Shell 
announcement that while they did not see what they were hoping, 
it was also complicated by the fact that seven years and $7 
billion leads them to turn away from a prospect that was not 
only important to Shell, but very, very important to the State 
of Alaska. Then on Friday to learn from the Secretary, by voice 
mail, before a public announcement that the lease extensions 
were not going to be renewed, not going to be considered, as 
well as cancellation of the offshore leases for '16 and '17, an 
incredible blow and a hit to the State of Alaska in regards to 
our opportunities to explore anything offshore.
    This is at a time when again the Secretary and the 
President know full well that we have got a pipeline that is 
less than half full and we are looking as a state to be able to 
move in some of these areas--and we have been hindered at all 
turns.
    The question that I have for you this morning is what was 
your role in these decisions as they relate to offshore Arctic? 
What was your role as Principle Deputy at PMB in these 
decisions?
    Ms. Sarri. Senator, thank you for your questions. I have 
the same cold as you do, so I hope you feel better.
    Let me just first start by saying really quickly that 
Alaska is incredibly important, obviously, to energy production 
in this country. And the safe and responsible development in 
the Arctic is an important part of that picture.
    The Chairman. But we are not seeing it coming out of the 
Administration.
    Ms. Sarri. I was not involved in either of the decisions 
announced on Friday. My role at PMB is really on those cross-
cutting policy initiatives. I mentioned a couple just invasive 
species and youth issues, energy issues that firmly lie with 
BOEM and BSEE.
    The Chairman. So you had no involvement in terms of the 
decisions either as it related to the lease extensions or the 
cancellation of the '16 and '17 offshore leases?
    Ms. Sarri. No, Senator, I did not.
    The Chairman. The drilling regulations that are coming up 
are, again, something that we are very, very keenly looking at. 
BOEM and BSEE are in the process of developing these regs now 
to address offshore drilling safety in the Arctic. The concern 
that many have is that what Interior will lay down will be regs 
that are so burdensome and so excessive in terms of the 
regulatory controls that effectively pushes even further off 
the opportunity for activity in the Arctic.
    In this position you are being nominated for, how would you 
work to bring greater certainty because that is what we are 
looking for here is certainty to the Federal regulatory 
environment in the Arctic?
    Ms. Sarri. So, Senator, again, that's something that BOEM 
and BSEE work closely on when they're doing regulatory 
development. And the important role I think I play in that 
effort is to make sure that those two Bureaus have sufficient 
staffing to meet their regulatory mission and to carry out 
regulations working with industry.
    The Chairman. So when you say that, I mean, your title is 
Policy, Management and Budget. So you are suggesting to me that 
on the policy side of it the only thing that you do is make 
sure you have sufficient staffing available for that?
    Ms. Sarri. On this particular issue that you were raising 
where my nexus is really working on the budget side of the 
equation and not so much on the regulatory development.
    When it comes to the policy issues at PMB, it is really on 
those that have cross-cutting nexuses with all the different 
Bureaus where you want to have that cohesion and coordination. 
As I was mentioning one of the big areas that we play in is 
invasive species which have an impact across public lands and 
in communities or wildland fire development.
    So when it's very mission specific to a bureau we, the 
bureau, are responsible for that effort. But with that case 
coming out, I think one of the important things I need to do is 
have a responsible role in terms of making sure we're budgeting 
responsibly for that and also where it's appropriate for me to 
offer oversight.
    The Chairman. I will have some further questions here.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    Like you, I have many questions for our nominees but only 
five minutes, so I am just going to throw it out there and see 
if we can get a lot of feedback.
    Mr. Kotek, I wanted to ask you about the recommendations to 
separate defense and commercial waste--whether you will come up 
with a plan to move forward on that, whether that plan would 
include impacted communities, and what technical issues do you 
think need to be addressed so that we can get there?
    I am so glad that Dr. Cherry and Ms. Wassmer are sitting 
next to each other because when it comes to cleaning up 
Hanford, you represent both ends of this puzzle.
    Dr. Cherry, I want to know if you agree--the National Lab 
Commission that you served on said that science should play a 
larger role in helping us with some of our major nuclear waste 
sites and the remaining issues. Some of the waste, we still do 
not even have solutions for on the science side.
    Ms. Wassmer, how do you plan to complete in a timely 
fashion both getting the Vitrification plant done and the Waste 
Treatment plant done? So both of the waste treatment 
facilities, obviously, have had many challenges. How do we 
complete that?
    Lastly, Dr. Kimball, I do not know if you read the New 
Yorker article about the Cascadia Fault and the challenges of 
what is an analysis of a 300-year event that could hit the 
Pacific Northwest, but my colleague, Senator Murkowski, and I 
have introduced legislation on better monitoring. What do you 
think we need to do to actually get that better monitoring in 
place?
    So, as quickly as you can go.
    Mr. Kotek. Certainly, I'll start.
    Thank you for the question, Senator. What you've touched 
on, of course, is the Administration's commitment to a consent 
based siting process to develop new facilities for the storage 
and ultimately for the disposal of nuclear waste. The 
Administration is committed to a consent-based siting process 
that involves working with states, tribes, local governments, 
in a way that leads to signing agreements with what we'd call, 
a willing and informed host, community for those facilities.
    As we learned through the Blue Ribbon Commission process, 
communities, states, tribes are going to need to answer two 
fundamental questions when it comes to their willingness to 
host such facilities. One is can we do this in a way that's 
fully protective of people and the environment? And then second 
is can our community, state, tribe, feel like they're better 
off for having taken on this challenge until it becomes 
incumbent upon us to provide information, technical resources, 
other assets to them as they work through answering those types 
of questions.
    Senator Cantwell. So will you come up with an actionable 
plan on separating defense and civilian waste? That is what I 
am asking.
    Mr. Kotek. Oh, I'm sorry.
    When it comes to the defense waste, yes. We have, the 
President acted on a recommendation from the Secretary to, in 
fact, pursue a separate repository for defense waste. That 
announcement was made back in March, and we're now in the 
process of developing plans for that.
    Senator Cantwell. Great.
    Mr. Kotek. So yes, and thank you. I'll look forward to 
working with you on that, if I'm confirmed.
    Senator Cantwell. Okay, great.
    Dr. Cherry?
    Dr. Murray. Thank you for the question, Senator.
    Of course, science really is the underpinning of pretty 
much every technology, and one of the things that the 
Commission noted is that with the enormous amount of resources 
that we're spending on environmental cleanup more science is 
definitely necessary.
    So already we've had scientific consensus, workshops and 
meetings of scientists and environmental managers to try to 
figure out what are the scientific breakthroughs that we can 
do. And you will see more on this. I'll be very glad to work 
with you.
    Senator Cantwell. Thank you.
    Ms. Wassmer. Thank you, Senator, for the question related 
to WTP and the importance of that for the Hanford site.
    I've had high level briefings from the Department of 
Energy. And if confirmed, I would be getting more to speed up 
with the details. But I do understand the phased approach that 
the Department is recommending in terms of that facility and do 
believe that it's very important to ensure that we can both 
treat, store and then ultimately safely dispose of waste.
    Senator Cantwell. Well, I will look for it. I know you have 
done good work at the FAA, but part of the issue at Hanford has 
been somebody proposes some great idea, a new secretary comes 
along and then they realize later that doesn't work. And then 
we've spent billions of dollars, and we have to go back.
    I just hope that we will move forward on a path of 
certainty here--we have leaky tanks, and we need to get them 
cleaned up.
    Dr. Kimball, getting our monitoring system?
    Dr. Kimball. Right. Our priorities are absolutely to 
provide the kinds of information that are necessary to protect 
public health and safety, and early warning systems are very 
important. And that requires monitoring.
    We very much appreciate the attention that this Committee 
has provided and you and Chairman Murkowski in introducing the 
legislation that would establish the National Volcano Early 
Warning System. We feel that that's an important step forward 
and the attention, the national level attention, that this 
legislation brings to the issue, we feel is very important.
    I look forward, if confirmed, to working closely with you 
to ensure that we do have those kinds of systems in place.
    Senator Cantwell [presiding]: Thank you.
    Senator Cassidy?
    Senator Cassidy. Ms. Sarri, I think you mentioned your 
mother is a Michigan football fan just to get the sympathy 
vote. Did you know, that is just, kind of, my bias? [Laughter.]
    Of anyone.
    Ms. Sarri. Did it work? [Laughter.]
    Senator Cassidy. Not from the Michigan State people, you 
know, they are---- [Laughter.]
    First I would like unanimous consent to introduce a letter 
on behalf of my Louisiana colleague, Senator Vitter, regarding 
Ms. Kendall's nomination.
    [The information referred to follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
    Senator Cassidy. Ms. Kendall, you came by my office. We had 
a nice visit. Thank you.
    Some of the questions will be followup to that or even the 
same, but it is more for the public record as opposed to our 
personal conversation.
    To set the stage for others when the Macando oil spill 
occurred there was a report issued by the Department of the 
Interior suggesting that eight safety experts felt as if the 
moratorium instituted by the Department was appropriate. As it 
turns out those eight experts did not agree with it and said 
that it would not measurably reduce risk and would have a 
lasting impact upon the nation's economy that my state still 
suffers from that decision to go forward with the moratorium 
despite the experts saying not to. And there was an 
investigation that ensued. So with that stage set, I will 
proceed.
    As you know and as we spoke in the office, there was an 
issue that you were to investigate who altered the report and 
yet simultaneously were being involved--took membership on the 
Safety Oversight Board of the OCS. There was a tension there. 
On the one hand you were to investigate something of which you 
were a part of. So would you please address that?
    Ms. Kendall. I will, Senator, thank you.
    The details are, sort of, in the weeds, but the distinction 
is the Safety Oversight Board was charged with putting together 
long-term solutions or recommendations for safety and oversight 
in the Outer Continental Shelf. The report that we were being 
asked to review, the IG was asked to review, was something 
called the 30 day report. And it was a short-term report 
requested of the Secretary by the President to make immediate 
recommendations to solve some of the immediate problems that 
were being faced in the Gulf because of the Deep Water Horizon 
disaster. And so the Safety Oversight Board did not have a role 
in that 30-day report.
    Senator Cassidy. Can I ask? Was there anyone on the Safety 
Oversight Board who could have potentially, knowing that you 
could not know then what you know now, who could have 
potentially been involved with the alteration of the original 
report in the sense where you are rubbing shoulders, breaking 
bread, with those whom you might otherwise have to hold 
accountable for having altered a report?
    Ms. Kendall. I don't believe so. And it was not----
    Senator Cassidy. Could you have known that when you joined 
the Safety Oversight Board? It does not seem as if it is 
conceivable that you could have known.
    Ms. Kendall. Undoubtedly, I couldn't have.
    Senator Cassidy. So just intuitively if you are rubbing 
elbows and breaking bread and coming together on a mutually 
agreeable basis we have got to figure this out. At the same 
time you may potentially be holding someone accountable for 
something which truly was wrongdoing. It seems as if you have 
set yourself up for a conflict of interest.
    Ms. Kendall. I understand how that perception could be or 
that conclusion could be drawn. In fact, however, the Safety 
Oversight Board was not involved in that 30-day report.
    Senator Cassidy. I accept that. But, as we spoke earlier, 
it would have been hard to know then that there were not people 
on one board who may have been responsible for a wrongdoing 
elsewhere.
    Ms. Kendall. Except there were only three people on the 
Safety Oversight Board, and I knew who was involved in the 30-
day report.
    Senator Cassidy. I accept that.
    Now I have an email from an Assistant Secretary in which it 
seems as if some of the Inspector General's staff were 
uncomfortable with your involvement with the Board. So I will 
not quote at length, although I could, but just suffice it to 
say it does seem as if within the organization it was perceived 
as a conflict of interest by some.
    Let me ask as well, and we have spoken about this before 
but again for the public record, the House has previously or I 
guess maybe, the Senate, but I am more familiar with the House, 
has requested information of your staff as regards to this 
whole episode and the Inspector General's staff did not submit 
that information.
    Now in our conversation you said, well, never before have 
Inspector Generals been offered this and it was really up to 
the House to go to the Department to provide the information.
    But at some point if there is a set of circumstances in 
which you would serve on an Oversight Board, because we really 
have to make things work here and this is a bending of the 
rules or a potential conflict of interest that maybe could be 
overlooked in order for the greater good, if Congress is going 
after a record and Interior will not give it to them, it almost 
seems like the Office of Inspector General not giving it as 
well serves the interest of the Department. And we are 
frustrated because we cannot exercise oversight because both 
are playing rope-a-dope. What are your thoughts about that?
    Ms. Kendall. Well Senator, in this case we're talking about 
documents that Executive Privilege came into play.
    Senator Cassidy. As I gather though, that was something 
that you invoked that the Administration did not invoke prior 
to you.
    Ms. Kendall. No, we did not invoke it. The OIG did not 
invoke it.
    Senator Cassidy. Okay.
    Ms. Kendall. The Department led up to invoking it. Only the 
President can invoke Executive Privilege, and what we were 
doing was trying to get the House Committee and the Department 
to talk and resolve that issue as opposed to asking the OIG to 
play referee.
    Senator Cassidy. Then I will go back to my point. If the 
Department decides to rope-a-dope and not give information to 
Congress, we have no place else to go but the OIG. 
Theoretically your loyalty is to both, to the Department and to 
Congress. In that case it served the purpose of the Department 
but not for the purpose of transparency.
    Thank you again. I yield back.
    The Chairman [presiding]: Thank you, Senator Cassidy.
    Senator Franken?
    Senator Franken. Thank you, Madam Chair.
    Ms. Kendall, welcome. It is always a pleasure having a 
Minnesotan in front of the Committee.
    In your testimony you underlined that some may mistake your 
civil dealings with the Department of the Interior as being too 
accommodating. I appreciate that you bring some Minnesota nice 
to the Federal Government.
    However, could you tell me about how you view the role of 
the Office of the Inspector General as an independent entity?
    Ms. Kendall. Yes, sir. Thank you, Senator.
    The OIG plays an important role in terms of holding the 
Department accountable. We do that through audits and 
investigations primarily, and our findings come through and 
then we follow up with recommendations.
    I think that the responsibility of the OIG is to call 
things as it sees them through its audits and investigations 
and make meaningful recommendations that will help the 
Department improve its operations and resolve problems.
    Now those are not always happy discussions, but I think 
they can always be civil. And that has been part of my role is 
to engage in difficult discussions with the Department usually 
about difficult problems that are not easily solvable but to do 
it in a productive and a polite manner.
    Senator Franken. Thank you.
    I know that Senator Cassidy was asking about some of the 
controversies around the Deep Water Horizon oil spill. In 2008 
Congress established an Integrity Committee to investigate 
allegations of wrong doing that were made against Inspectors 
General. The Integrity Committee includes a Senior FBI official 
who serves as the Chairman, the Director of the Office of 
Government Ethics, the Special Council and Foreign Inspectors 
General.
    You mentioned in your testimony certain controversies which 
Senator Cassidy mentioned involving your office's handling of 
matters related to the moratorium, the drilling moratorium, 
which was exhaustively investigated by the House Natural 
Resources Committee.
    It is my understanding that the three Gulf State senators 
asked the Integrity Committee to investigate allegations of 
misconduct involving your handling of this matter as well. I 
understand that the Integrity Committee appointed an Inspector 
General from another Department who conducted an independent 
investigation but could find no evidence to support any of the 
allegations. The Integrity Committee reviewed the Inspector 
General's report and adopted its findings and conclusions as 
its own two years ago, and the matter is now closed. Is that a 
fair summary of the Integrity Committee's investigation and 
conclusion?
    Ms. Kendall. I think it is a fair summary, sir, but we also 
provided that information to the Committee in written form so 
the Committee has that.
    Senator Franken. Thank you.
    I would like to move on to Dr. Kimball.
    Next month the Administration will fly to Paris for 
historic negotiations on an International Treaty to curb 
greenhouse gases. While the state of science is sufficiently 
matured to act, climate change research is ongoing and remains 
a priority both for me and for the U.S. Geological Survey.
    Dr. Kimball, can you describe how you envision the role of 
climate change research within the USGS as well as some of the 
current areas of exploration?
    Dr. Kimball. Yes, Senator, thank you very much for that 
question.
    Senator Franken. Bad microphone.
    Dr. Kimball. Thank you.
    The USGS has been studying climate effects for several 
decades, nearly all of our 136 year history. And we are in a 
unique position because we can examine the geologic record and 
look for those changes that are associated with natural 
processes verses changes that are exacerbated by other 
activities.
    So we do intend to continue. We have a missionary dedicated 
to climate and land use change in which we brought together the 
work that we've been doing across the bureau to eliminate 
internal duplication of effort and to ensure efficiencies.
    We plan to be working on downscaled models to look at the 
impacts of climate variability associated with things like 
drought, reduced snowpack and snow melt, coastal changes, 
changes associated with different storm regimes, both in terms 
of tropical storm intensity and tropical storm patterns and to 
look at how those impact and are connected with decisions about 
land use change and carbon sequestration and carbon storage to 
identify climate resilience activities that can be taken at 
local and community levels to mitigate these impacts.
    Senator Franken. Thank you. I am out of time, but Madam 
Chair, since it is just you and me, can I ask one more 
question?
    The Chairman. Okay. [Laughter.]
    Senator Franken. Thanks.
    This is for Dr. Murray. I am pleased that the bipartisan 
energy bill that we passed out of Committee in July includes 
additional funding for energy storage research and development. 
As our grid continues to evolve I believe that new energy 
storage technologies will be essential for providing enhanced 
grid stability and enabling variable renewable energy sources 
to meet continuous electricity demand. I also believe that the 
Department of Energy has an important role to play in this 
effort.
    Dr. Murray, what role do you see for the Office of Science 
in developing transformative energy storage technologies 
including through ongoing activities at the Joint Center for 
Energy Storage Research?
    Dr. Murray. Thank you, Senator, for the question.
    Of course, science has a lot to do with energy storage. For 
the first, materials are essential.
    The study of catalysis, the study of chemical reactions, 
the study of new possibilities for materials in the modeling 
using high performance computing, all of which is going on at 
JCESR, the Joint Center for Energy Storage and Research which, 
is an Office of Science hub, is looking at the generation 
beyond lithium ion batteries. What that has accomplished so 
far, just in its first three years, has gotten the industry, 
who have been working on storage, as you know, for hundreds of 
years, to accelerate their technology.
    So the lithium ion industry is decreasing the cost of 
lithium ion batteries just because we have this storage hub. 
They're creating a data base of different types of electrolytes 
and different types of materials that could be used. You can 
up, if you can make it work, you can up the storage capacity of 
a battery by using magnesium which has two charges instead of 
lithium which has one. And so they're going in that direction.
    So this is beyond. It's collaborating with industry but 
it's beyond what industry would feel comfortable doing because 
they have no idea of whether it's going to end up anywhere near 
a product. But that's where, I think, the Office of Science 
fits. It's between the universities who cannot easily do these 
big projects which go from science all the way to prototype and 
industry which looks at the prototypes and says, you know 
that's a good idea. I think I can actually make that cheaper 
and I can make a product out of it.
    So it's this joint--this hub is working extremely well, and 
I invite you to visit it.
    Senator Franken. I would love to do that. Where is it?
    Dr. Murray. It's located at Argonne National Lab.
    Senator Franken. Okay.
    Dr. Murray. Near Chicago.
    Senator Franken. Okay.
    Well, thank you. Thank you, Madam Chair, for indulging me.
    The Chairman. Thank you, Senator Franken.
    Senator Portman, you are up.
    Senator Portman. Thank you, Madam Chair, I appreciate it.
    I was here earlier and had the opportunity to hear some of 
the testimony and some of the questions, and I appreciate all 
of you being willing to step up and serve. Many of you have 
served before or in other capacities.
    My questions are to the Department of Energy, to our 
friends who are here interested in getting confirmed for 
important positions that are going to affect the livelihood of 
a lot of people in my state, including at the Piketon Nuclear 
Enrichment, Uranium Enrichment Plant, in Pike County, Ohio. We 
have had a tough time there.
    As some of you know this is the site where we uniquely 
enrich U.S. uranium. It is important for our nuclear arsenal. 
As Mr. Kotek said earlier, it is important for our nuclear 
energy industry. It is also critical because it provides 
tritium which is required for the arsenal and our nuclear navy, 
of course.
    So we have recently had 500 employees at the site who 
received warn notices. This is for the cleanup of the old 
technology. This is very frustrating for me because for years 
and years we have received commitments from the Administration, 
this Administration and others, to clean up the site. And 
frankly, the commitment has not been honored.
    So my questions are going to relate in part to that 
cleanup. Ms. Wassmer, you are interested in being Under 
Secretary of Energy, so you are going to have a lot of 
responsibility for the cleanup side of things.
    President Obama said in 2008, the failure to clean up this 
site quickly will one, delay future economic development 
opportunities. Very true. I was out there a few weeks ago, and 
again, they cannot move forward with the economic development 
of that area, one of the poorest areas of Ohio, unless they get 
this cleanup done. Of course, they need to remove the 
radioactive and other waste that is there.
    Second, according to the President, will only add 
additional mortgage costs. Wow, with the commitments that have 
not been made, the taxpayer gets stuck with the bill, about $4 
billion more over time to the taxpayer already with the 
slowdown in the cleanup that we have seen in this 
Administration.
    Third, he said, will pose undue environmental risks. Well, 
yes, part of the reason you cleanup these sites is to ensure 
that the communities are safer. We are really frustrated 
because again and again the Administration has made commitments 
and not kept them.
    In 2009, DOE made a secretarial commitment to the community 
to accelerate the cleanup and complete the work by 2024, and if 
you are interested in having that in writing I am happy to 
provide it to you because Secretary Moniz wondered about that. 
It is true, and we have talked about it many times.
    The press release at the time said accelerating the cleanup 
was an effort to jump start the local economy and create jobs. 
Now we are being told in that community that it is going to be 
2044 at the earliest. Again, 500 people are having their jobs 
threatened.
    So I have a few questions for you, Ms. Wassmer, as you take 
on this job. Thanks to some language that my colleague, Senator 
Alexander, got into the Appropriations bill when the House side 
did in the CR, we were able to keep employment levels at their 
current level. In other words, not have these warn notices be 
implemented. Again, Congress seems to have to step in every 
year and provide this last minute help. That is not the way to 
run a railroad. It is certainly not the way to run people's 
lives.
    So very quickly if you could just give me a yes or no on 
this, the Secretary committed to me a couple of weeks ago that 
he would advocate for additional funding for the cleanup and 
the long-term spending package. Would you support the 
Secretary's efforts to secure this additional funding in the 
Piketon cleanup so that after December 11th, for the longer-
term package, that the people at that plant know they are going 
to have a job?
    Yes or no?
    Ms. Wassmer. Thank you, Senator, for your question. I do 
understand the importance of Portsmouth in relation to our 
national defense, and I do also understand during the CR period 
that the Department has committed to ensure that there are no 
involuntary left layoffs.
    Senator Portman. I have limited time, so I need a yes or a 
no on the long-term cleanup.
    Ms. Wassmer. Sir, absolutely, we will have the----
    Senator Portman. For the long time CR, yes or no.
    Ms. Wassmer. I am committed to ensuring if I am confirmed 
that we would have long-term cleanup at the Portsmouth site.
    Senator Portman. And that for the long-term CR, in other 
words, after December 11th, that you would support the funding 
in there to keep these people from losing their jobs.
    Ms. Wassmer. Sir, I----
    Senator Portman. This is what the Secretary told me that he 
was going to advocate for.
    Ms. Wassmer. Sir, if the Secretary has shared that with 
you, if I am confirmed, I will support, absolutely, his 
direction and guidance----
    Senator Portman. Every year you guys put in your budget 
inadequate funding for the cleanup. You were $80 million short 
last time. My question for you is very simple. Are you going to 
advocate this year to be sure the cleanup levels in the FY'17 
budget request are adequate to keep the layoffs from happening 
and to keep the cleanup on pace at least to the level it is at 
now? Yes or no?
    Ms. Wassmer. Sir, if I am confirmed I would be happy to 
work with you on this issue.
    Senator Portman. Okay.
    I would say to that question, you would be happy to work 
with me, when I supported Secretary Moniz in his confirmation. 
He made that same commitment. When I supported the Deputy 
Secretary, Sherwood Randall, I got that commitment. The 
Assistant Secretary, Regalbuto, I got that commitment, the Head 
of the Office of Environmental Management. All during their 
confirmation hearings they made assurances they would work with 
me. They said those same words, and they have not.
    So we need to see that follow through. And you know, 
frankly, I am not much in the mood to do other confirmations 
until I get real commitments on this.
    Mr. Kotek, you and I have talked about some of these issues 
before. I am sure and I know you have a great background in the 
nuclear area and I appreciate what you said about nuclear power 
and its importance, but I would just ask you one simple 
question about the new technology which is ACP technology. We 
had 120 centrifuges that are spinning out there. Suddenly DOE 
surprises us all, as you know, a few weeks ago and says we are 
going to pull the plug on this after many indications the 
opposite would be true, not providing us the report that was 
due to Congress in April to defend that. We got that report the 
night before the hearing when Secretary Moniz was here. Do you 
believe that we do need to have a domestic source of enriched 
uranium?
    Mr. Kotek. Thank you, Senator, for the question.
    Of course, the availability of uranium to meet our nuclear 
energy needs in the U.S. is very important to my organization 
of the future of nuclear technology.
    The specifics of the ACP project in the uranium enrichment 
program in DOE actually falls into a different organization, so 
I am not familiar with the specifics of the report you referred 
to or other things. But I certainly would be pleased to work 
with you, if confirmed, to ensure that we have got uranium 
available to meet present and future needs here in the U.S.
    Senator Portman. Your predecessor was very involved in 
this, so I hope that you will be as well. And to the extent you 
believe in nuclear power as you said earlier, I would certainly 
hope you would believe that we ought to have a domestic source 
of enriched uranium and not be dependent on the Russians and 
others for our enriched uranium. Can you make that commitment 
today?
    Mr. Kotek. Yes, sir. Thank you for the statement. I agree 
that we need to ensure that we have got availability of 
domestic enriched uranium going forward.
    Senator Portman. Thank you, Madam Chairman.
    The Chairman. Senator Heinrich is next on the list.
    Senator Heinrich. Thank you, Madam Chair.
    Ms. Wassmer, DOE's Office of Management and Performance is 
responsible for the very important work of cleanup and disposal 
of defense nuclear waste including work in New Mexico at Los 
Alamos National Labs, obviously, and the Waste Isolation Pilot 
Plant (WIPP) in Carlsbad. WIPP, as you know, is the nation's 
only deep geological repository for defense transuranic waste.
    So first, I would just say that I would invite you to visit 
WIPP once you are confirmed. I know that reopening that 
facility remains a very high priority for Secretary Moniz; 
however, I hope you agree that the safety of the workers and 
the surrounding community has to be our top priority as that 
process moves forward. DOE's recent internal assessment of 
trends in safety showed continuing problems with senior 
management's attention to the conduct of operation, maintenance 
and safety culture. The review cited schedule pressure as an 
underlying causal factor in that report.
    How do you see your responsibilities in overseeing WIPP's 
recovery as a site and how would you refocus efforts to restore 
safe operations and a safety culture at that facility?
    Ms. Wassmer. Thank you, Senator, for your question related 
to the WIPP facility.
    I have had background briefings and understand at a high 
level both the unique role in being the first operating 
repository there, but also the current stoppage in relation to 
the incidents that you referred to and the importance in 
ensuring safely the expeditious return of that facility.
    And so, if I am confirmed, I can share with you I would get 
up to speed with the details, would be very interested in 
visiting the site and making sure that we have the safe return 
of services at WIPP.
    Senator Heinrich. I look forward to that.
    I will say that we are all eager to see that facility 
reopened, to see the staff there get back to work, but we need 
to do it in a way that puts their workplace safety, at the 
absolute top of the priority list.
    Dr. Murray, I want to ask you a question.
    The Commission to review the effectiveness of DOE's 
national laboratories released its draft final report last 
month, and one of the Commission's recommendations that I was 
very heartened by is that all DOE programs and laboratories 
fully embrace technology transition and that mission and 
continue improving the speed and effectiveness of 
collaborations with the private sector. I thought that was a 
fantastic development. It is something a number of us have been 
trying to move forward for some time.
    I just wanted to ask you if you agree that technology 
transfer is an important, central part of the overall mission 
of the national laboratories and what do you think DOE can do 
to address the challenges that small businesses have in finding 
constructive and straight forward ways to engage with the labs 
to commercialize those innovative technologies?
    Dr. Murray. So thank you, Senator, for the question.
    I am, myself, from my background at Bell Labs, very, very 
interested in technology transfer. And if confirmed, I will 
work with the Department to help a better technology transfer.
    One of the things that I learned while I was at Bell Labs 
is that the best technology transfer is with two feet. It's 
really people. So one of the things I have been thinking about 
that would help the national labs work better with small 
businesses, startups in particular, is to have post docs at the 
labs transition to the startups.
    This works really well in universities. It's not really 
practiced except by accident at the DOE national labs now, and 
it gets around a lot of the difficulties in intellectual 
property and in making the agreements with very small companies 
and the national labs work well.
    The other thing that I will point out that I was very 
pleased to discover as a member of the Commission and having 
been away from the national labs for a while was that several 
of the national labs are starting what I will call a best 
practice of providing an umbrella agreement for small business 
in their vicinity. So small business can sign up, they can get 
a voucher and make use of the lab with very little, three 
month, negotiation of contracts which has to get better. I 
absolutely am on it, if I be confirmed.
    Senator Heinrich. I very much appreciate your reference to 
the voucher approach. I think that is one of the best 
practices. It is something that I have included in tech 
transfer legislation.
    I know Sandia National Laboratories does something similar 
to what you were mentioning called entrepreneurial leave that 
has been very effective.
    We need to figure out those places around the country where 
things are working and standardize them more across the 
complex. I think one additional place that I would encourage 
you to look is by simply looking at the concept of creating 
sort of a front door that is outside the gate, literally, a 
space with these labs where small business can engage directly 
with the labs without going through all the steps that it takes 
to go behind the gate for the first time.
    Dr. Murray. Yes, thank you, Senator. I completely agree 
that is a very good practice, and Lawrence Livermore Laboratory 
has done that.
    Senator Heinrich. Thank you.
    The Chairman. Thank you, Senator.
    Senator Flake?
    Senator Flake. Thank you.
    Ms. Sarri, as you know in 2013 we had a shutdown, a 
government shutdown that affected a lot of states, particularly 
the parks. Six states provided a combined $2 million to keep 
some of the national parks open during that time.
    When the Federal Government reopened the Park Service, 
Department of the Interior was reimbursed then made whole, but 
the states that provided the money have not seen that money 
reimbursed. I believe that you have stated your opposition to 
that reimbursement. Is that correct?
    Ms. Sarri. Senator, I appreciate that you brought that up 
when we had a courtesy meeting, and I wanted to make sure I 
went back and fully understood the Administration's position. 
And my understanding is if Congress enacts that legislation we 
would want to work with this Committee and obviously with the 
parks and the states to offer that reimbursement.
    Senator Flake. So your position is different now?
    Ms. Sarri. Yes, Senator, it is.
    Senator Flake. Okay, that is good to know. That was passed 
here on a bipartisan basis twice by voice vote, and the 
legislation was sponsored on a bipartisan basis by Senator 
Heinrich, myself and others, to make sure that the states were 
reimbursed. I am glad to hear that.
    Let me go for one issue. Just last week the Office of 
Inspector General issued a report finding that the National 
Park Service (NPS) was improperly using a construction account 
to fund reimbursable activities performed under interagency 
agreements. In its report the OIG said that NPS is using the 
construction account to pay non-construction expenses and 
treating its account as if it were a revolving fund. The report 
further states that NPS disagrees, arguing that it has 
authority to use the construction account as a ``convenient 
method to fund reimbursable expenses.''
    In your capacity as Principle Deputy Secretary, Assistant 
Secretary for Policy and Management and Budget, did you provide 
an analysis of the Park Service's use for its construction 
account and do you believe that this is a proper use of funds?
    Ms. Sarri. Senator, thank you very much for the question.
    I'm actually not familiar about this particular issue. I 
don't think we provided analysis at the departmental level, so 
I would like to get back to you more on the record on that one.
    Senator Flake. Okay.
    Ms. Kendall, do you have anything to share on that? Is that 
the issue that we discussed in my office or?
    Ms. Kendall. Simply that we, quite vehemently, disagree 
with the Park Service's position on that expenditure and hope 
that we'll be able to resolve it either through the 
appropriations folks, in this body and the House, or that they 
will stop utilizing that fund for that purpose.
    Senator Flake. Okay.
    Ms. Sarri, will you commit to getting back to my office on 
that?
    Ms. Sarri. Absolutely.
    Senator Flake. Thank you, I appreciate that.
    One other thing, Ms. Wassmer, we have heard from some in 
Arizona about the cost containment concerns with WAPA. Can you 
commit to work with us to address some of these concerns that 
have been raised in terms of cost containment?
    Ms. Wassmer. Thank you, Senator, for the question.
    If confirmed, I commit to looking into the details related 
to WAPA as you have referenced.
    Senator Flake. Okay, thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Manchin?
    Senator Manchin. Thank you, Madam Chair.
    Dr. Kimball, in March 2011 I submitted a letter along with 
Senators Barrasso and Paul to then Chairman Bingaman and then 
Ranking Member Murkowski of this Committee seeking an oversight 
hearing concerning the Office of Surface Mining's proposed 
stream protection or the stream buffer rule. There was evidence 
that the DOI management in 2010 tried to discard a contractor's 
economic analysis of this rule that suggested up to 29,000 coal 
jobs could be lost nationwide as a result of these proposed 
regulations. The Department of the Interior management also 
threatened to fire the contractor.
    Our letter to the Committee stated independent, scientific 
analysis of proposed regulations must remain objective and free 
from political pressure.
    Five years later the nation's coal industry continues to 
struggle. We have lost that many jobs, if not more, the serious 
economic consequences that would be associated with the latest 
version of this rule. I have also seen general reports that 
your office has been under immense pressure from this 
Administration to provide more favorable numbers and ignore the 
conduct that occurred in 2010.
    Can you comment on these claims? Do you have knowledge of 
these?
    Ms. Kendall. I do, generally, I have knowledge of what we 
investigated that was relative to the political allegation of 
political influence.
    Senator Manchin. They seem to be very upset about the 
contractor that you all threatened to fire because they put out 
the facts.
    Ms. Kendall. My recollection and I would ask if I could get 
back to you.
    Senator Manchin. Sure.
    Ms. Kendall. With more details.
    Senator Manchin. I would like that.
    Ms. Kendall. Our investigation determined that the 
contractor was not improperly terminated, that the appearance 
looked like----
    Senator Manchin. Let me followup with one okay?
    Ms. Kendall. Sure.
    Senator Manchin. Because you can get back to me on the 
accuracy of that.
    Ms. Kendall. Okay.
    Senator Manchin. Whether he was fired or not and what but 
can you comment on the pressures from this Administration has 
been exerted regarding the thousands of projected job losses?
    Ms. Kendall. I had no involvement in that, sir.
    Senator Manchin. Okay.
    Well, if you can, I really need to know about this because 
it is really disturbing. Our state is really getting plummeted 
by this, and it is just ridiculous. If a person is putting out 
the facts as they see them and if they do them and then you do 
not like the results and there is someone making those 
decisions to get rid of these people because they are not 
giving the answers they want, then we need to know about that.
    Ms. Kendall. Understood.
    Senator Manchin. Now, Dr. Kimball, can you comment on the 
extent of and the reasons for the dramatic rising estimates of 
the U.S. shale gas resources over the last few years? The 
reason I ask this question is, we are making decisions, we will 
be, on exporting LNG and different things and also our 
potential economic vitality from this resurgence, if you will, 
if we use it for manufacturing. And do we have the reserves? 
And why have they not been accurate on their estimates?
    Dr. Kimball. Well thank you for that question.
    There are two reasons that have affected the estimates of 
our shale gas resources. One is that through the years there 
are increasing numbers of surveys of subsurface conditions both 
by USGS, by state geological surveys and by industry. And so 
that helps us understand the full breadth of resources across 
the nation. The second is that our analyses and our assessments 
are directed toward technically recoverable resources at the 
time that the assessment is done, and technology has been 
increasingly effective in being able to extract these 
resources. And as technology evolves more and more of the 
resource becomes available for extraction.
    Senator Manchin. Well, my followup question is how do you 
all manage to stay on top of the estimates of the technically 
recoverable gas?
    If we are wanting to know how much that we can, not what we 
have, but what we can recover to market?
    Dr. Kimball. We're fortunate to have very close working 
relationships with other Federal agencies, Department of Energy 
for one, in this regard and with industry. And we have 
developed a good working relationship with industry in terms of 
protecting proprietary information and yet being able to use 
that information to improve our assessments.
    Senator Manchin. So if we are making determinations on our 
votes on different types of energy topics would you say your 
estimates are conservative? I mean if we are using your 
estimates would they be on the conservative side or maybe on 
the liberal side?
    Dr. Kimball. I actually don't have an answer for that. I 
would say that we tend to provide estimates that are 
conservative, but that doesn't mean that each and every 
estimate that we do falls in that category.
    Senator Manchin. This find is very unusual, this Marcellus 
shale and the Utica shale and now we have Rogersville and all 
this coming on in our little state of West Virginia. It is so 
much energy coming on the scene here, and we never saw that 
coming. You all did not see it coming either, I don't think.
    Dr. Kimball. No, I don't think that we were, not USGS, but 
as a nation prepared to fully understand the extent of those 
resources and the capability of technology to extract them.
    Senator Manchin. Is there anything else out there we might 
have under our feet that we do not know about that could really 
give us another boost?
    Dr. Kimball. Probably, but I couldn't tell you what it was 
today.
    Senator Manchin. Thank you.
    The Chairman. Thank you, Senator Manchin.
    Senator Lee?
    Senator Lee. Thank you, Madam Chairman.
    Thanks to all of you for being here and for all you do for 
our country.
    Ms. Kendall, I have a few questions for you.
    It appears based on a review of publicly available records 
on the OIG website that the OIG under your leadership has not 
undertaken a comprehensive review or investigation of the 
Endangered Species Act program including a review of the 
circumstances surrounding the 2011 settlement, the so-called 
mega settlement, between Fish and Wildlife Service and a number 
of environmental activist organizations. Can you tell me why 
your office has not looked into the listing and delisting 
process in general or into the decisions that were made in 
connection with the 2011 mega settlement?
    Ms. Kendall. The settlement question has come up before, 
Senator. And quite frankly, we asked, it was in another 
hearing, if there were specific concerns about issues in that 
settlement and have not been advised that there are specific 
concerns.
    We did not look at the settlement. We have not been asked 
to look at the settlement and are not aware of issues, other 
than the usual issues involved in endangered species decisions 
which are always controversial.
    Senator Lee. Right. Well I would assume even in the absence 
of a request from Congress or someone else that you would look 
into something involving periodic review listing decisions just 
to see how they are made and to see whether they are being made 
according to the appropriate statutory standards?
    Ms. Kendall. Not necessarily. If we have information to 
suggest that they are not being properly made we would, of 
course, look into them. But we have not received any of that 
sort of allegation for a good number of years.
    Senator Lee. Okay, Okay. So generally you would not reach 
out to do that absent some kind of allegation of mismanagement 
or malfeasance in connection with a listing or delisting 
decision?
    Ms. Kendall. Correct.
    Senator Lee. And you have not received any of those?
    Ms. Kendall. We have not.
    Senator Lee. Okay.
    Now concerns have been raised, including in a 2014 
congressional investigation, about possible conflicts of 
interest and lack of transparency in connection with the peer 
review process that is used to justify ESA listing decisions.
    For example, it is my understanding that the Fish and 
Wildlife Service (FWS) has a policy dating all the way back to 
1994 requiring FWS to seek the expert opinions of ``independent 
specialists'' for its listing decisions and also for its 
recovery plans. It is also my understanding that the Fish and 
Wildlife Service regularly seeks out the same scientists whose 
work they are relying on to serve as peer reviewers such that, 
in effect, they are being, in many cases, asked to, kind of, 
review their own work. It seems to me that might possibly be 
less than independent. Would you share that concern?
    Ms. Kendall. I'm not familiar with this issue, Senator. I 
would certainly be glad to learn more from you and your staff 
and let you know if it's something that we think we should look 
into.
    Senator Lee. Okay, great. We would be happy to share our 
concerns at a staff level and see if we can get to the bottom 
of that and see if we can get that question answered.
    Do you have any concerns with the FWS using peer reviewers, 
the very same scientists whose work they rely on to justify 
their listing decisions? I mean, assuming that is happening, 
would that concern you?
    Ms. Kendall. What you're saying may be of concern. It's 
hard to apply theoretically. It would also be a matter of how 
many scientists there actually are for a given area of 
expertise. So, I really can't opine on a theoretical.
    Senator Lee. Right, right. So in some instances that might 
happen if it is a very narrow subspecialty and there are a 
limited number of scientists?
    Ms. Kendall. I can only surmise that that's a possibility.
    Senator Lee. Okay.
    One listing I do want to bring to your attention involves 
the Gierisch Mallow, a small flowering plant that is found in 
Utah. In its 2013 listing decision for this species the Fish 
and Wildlife Service said that the peer reviewers generally 
concurred with their methods and their conclusions. However, to 
my knowledge the only publicly available comment in the record 
for this listing is that attributable to a peer reviewer from a 
Dr. Lee Hughes. That opinion, as I understand it, says that a 
listing was prompted by the mega settlement lawsuit in 2011 and 
is not well thought out based on that scientist's 20 years as a 
BLM scientist. Are you familiar with that?
    Ms. Kendall. I am not.
    Senator Lee. Okay. I assume, you would agree that based on 
that fact pattern if the facts as I understand them are 
correct, that might warrant further scrutiny?
    Ms. Kendall. Again, I would be very happy to work with your 
staff for more detail on that.
    Senator Lee. Okay, out I would assume you would see a 
problem with the Fish and Wildlife Service stating that peer 
reviewers generally agreed with their listing decision on the 
one hand, but then finding that comments from the only 
identified peer reviewer found in the record actually 
contradict that decision.
    Ms. Kendall. Again, theoretically that sounds like a 
potential problem but I have no knowledge about the issue.
    Senator Lee. Okay.
    Fish and Wildlife's decisions whether to list a species 
have, as you can appreciate, an enormous impact on the people 
who live and work near that species, near where that species is 
found.
    Do you have any concerns with the peer reviewers comment 
that the listing was done to satisfy a lawsuit and was done, 
that it was not ``well thought out?''
    Ms. Kendall. Again, it sounds potentially problematic but I 
have no knowledge about the underlying issue.
    Senator Lee. Yes, okay. Well I assure you that it is, in 
fact, problematic. And unless my understanding of the facts is 
somehow incorrect, unless I am somehow mistaken, I would think 
that the fact pattern that I have described is not just 
potentially problematic but very problematic.
    Now, I hope I am wrong. I hope you can come back to me and 
say, look, you have been misinformed and you do not have 
anything to worry about. But if in fact these facts as I have 
described them are true, I would assume that you would at least 
be willing to look into them and to address the problem that 
they would create.
    Ms. Kendall. Yes, sir.
    Senator Lee. Okay, thank you very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Lee.
    Senator King?
    Senator King. Thank you, Madam Chair.
    I would like to address a brief comment to Ms. Kendall, Ms. 
Wassmer and Ms. Sarri.
    There is an important poll that came out this morning in 
the Presidential race, and it found that Mr. Trump and Dr. 
Carson had 49 percent of the support in the Republican Party. 
The reason I think that is significant is that neither one of 
them have any experience, whatsoever, in government and a big 
part of their appeal to the public is a distrust of government.
    The fact that outsiders are doing so well this year, it 
seems to me, is something we should think about in terms of the 
relationship of government to the American people. That makes 
the role of the Inspectors General and the management folks 
doubly important because we have to regain. I am not making a 
political statement here. I am just saying we need to recognize 
that in many instances we have lost the trust of the American 
people as an institution.
    You all are in a particularly important role to try to 
rebuild that trust in terms of investigating and dealing with 
issues of malfeasance and misfeasance and also in terms of 
managing the taxpayer's money effectively.
    There is not a question here, but I just want to emphasize 
I consider the positions that you have been nominated to be 
incredibly important because of the underlying issue of trust 
of our democratic system and our ability for the government 
which is quite large to be able to effectively meet the needs 
of the American people.
    I was struck by the fact that the two leading contenders 
for President in one of our major parties are both outsiders in 
that sense. I am not saying that is good or bad, but I think it 
reflects this underlying concern the government is not 
accountable and is not responsive. So these are very important 
responsibilities, and I just wanted to emphasize that.
    To go from that rather abstract level to some specifics. 
Ms. Kimball, you mentioned the 3D elevation program that you 
are doing. I have had some interaction on that program with a 
company in Maine, Kappa Mapping. I believe it is a very 
important program that is very useful, and I think will become 
more useful in the future. I hope that is one that you will 
continue.
    Again, on the science as we deal with these difficult 
issues, and Senator Manchin was asking you questions about how 
much gas is there and all of those kinds of things, we can only 
make good decisions here if we have good science and good data. 
It is absolutely crucial that you keep, you are one of the 
leading science people in the government, that you keep 
providing us with as good, clear, unpoliticized data as you 
possibly can. I assume that is your commitment.
    Dr. Kimball. Thank you, Senator.
    It's absolutely my commitment. If confirmed I can also 
guarantee that it is the commitment of all of the men and women 
of USGS to do just that.
    As for the 3D elevation program, it is one of our 
priorities. We see the good elevation data is absolutely a 
foundation for understanding a lot of the other scientific 
issues that we face today whether that's landslides and debris 
flows or whether that's riparian systems and flood systems. 
Having that information is essential.
    Senator King. And appropriateness for development.
    Dr. Kimball. Absolutely.
    Senator King. Crucial information.
    Well, thank you.
    Dr. Kimball. Yes, sir.
    Senator King. Mr. Kotek, by the way, I was impressed that 
you all brought your families. I think if I had to appear 
before a Congressional Committee, I would want my family as far 
away as possible. [Laughter.]
    It is wonderful that you did that.
    Mr. Kotek, we are sort of turning the page on high level 
nuclear waste and going to looking at consolidated interim 
storage with consent.
    Number one, I think it is important to realize that we have 
high level nuclear storage sites in this country today. So it 
is not a question of whether there will be some, it is a 
question of where they are. We have one in Maine where the 
Maine Yankee plant closed about a dozen years ago, and we have 
a high level nuclear storage site. I think you have been there.
    So my question is, as we are looking at this, sort of, new 
option, what is the timing? Is this another 25 years or are we 
talking about something that could happen within the reasonably 
foreseeable future?
    Mr. Kotek. Thank you, Senator, for the question.
    Yes indeed, I've been to the site to which you're referring 
and was struck by the fact that at that beautiful piece of 
property you've got spent fuel being, you know, guarded, 
protected, and everything else is gone from the reactor. And 
that was one of the things that I think really struck the 
members of the Blue Ribbon Commission when the Commission paid 
a visit.
    With respect to timing the Administration put out a 
strategy back in 2013 that at the time forecast about eight 
years to get to what we call the pilot interim storage 
facility, about 12 years to get to a full scale interim storage 
facility. And then set a year of 2048 for ultimately a 
repository.
    So, you know, I think in the not too distant future, given 
the appropriate appropriations and authorizations from the 
Congress, we'd be in a position to move out with development of 
the site using the consent-based process to which you refer. 
And if confirmed I look forward to working with you on that.
    Senator King. I will be 104 in 2048. I wish you could do it 
a little bit sooner than that. I would love to see that Maine 
Yankee site eliminated. And, you know, Eisenhower retook Europe 
in 11 months.
    Mr. Kotek. I should add to that point, sir, that in terms 
of setting priorities for moving fuel the Administration's 
strategy places top priority on dealing with fuel at the shut 
down plant sites such as Maine Yankee to go first to interim 
storage. So I would think that we would be able to move 
forward.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Hoeven?
    Senator Hoeven. Thank you, Madam Chairman. Thanks to all of 
our witnesses for being here today.
    I would like to start with Dr. Kimball.
    In May 2011 I asked then Secretary of Interior, Ken 
Salazar, to update the U.S. Geological Survey's 2000 estimate 
of the reserves, recoverable oil reserves in the Williston 
Basin. The USGS worked for about 19 months to complete that 
update and revise its findings of the Bakken reserves, 
recoverable oil reserves in the Williston Basin, and of course, 
increased their estimate very, very significantly. That was 
very important both in terms of stimulating drilling activity 
further or additional drilling activity in the Basin as well as 
helping us encourage and in fact get the infrastructure 
development that we needed as part of that energy development, 
that energy--that oil play.
    My first question is do you have plans to, I think now we 
replace about 1.2 million barrels of oil a day and huge amounts 
of natural gas as well. So my question is do you have plans to 
update USGS's estimates of the recoverable oil reserves in the 
Williston Basin?
    Dr. Kimball. Well, thank you, Senator. And we thank you 
because you were instrumental in bringing all the people to the 
table to help us move forward with that last assessment.
    We periodically review and update our assessments. I do not 
know, right now, what the timeframe is to review that 
assessment, but I will find that information out and provide it 
to you.
    Senator Hoeven. Okay, and then would you be willing to work 
with me? USGS has been very responsive and very good on this, 
so I would ask that you work with us to plan out the next 
update because it is very important as we continue to develop 
the Bakken, particularly now, with some of the competitive 
pressures that we face.
    Dr. Kimball. Yes, sir. I would be very happy, if confirmed, 
to continue working with you to make sure that we have the 
assessments updated as needed.
    Senator Hoeven. Thank you, Dr. Kimball. I appreciate that.
    I would like to turn to Principle Deputy Assistant 
Secretary Sarri, welcome.
    In March 2015 the Bureau of Land Management, which of 
course falls under the Department of the Interior, issued final 
regulations for hydraulic fracturing on Federal and Indian 
land. There are 27 states that produce virtually all of the oil 
and gas in this country, and those 27 states have regulations 
that oversee hydraulic fracturing. The BLM rule duplicates 
those efforts with a second layer of regulation.
    U.S. District Judge Skavdahl in Federal District Court in 
the State of Wyoming has issued a preliminary injunction in 
regard to that regulation. I am going to read a quote from his 
decision in issuing that preliminary injunction, ``Congress has 
not authorized or delegated to the BLM authority to regulate 
hydraulic fracturing and under our constitutional structure it 
is only through Congressional action that the BLM can acquire 
this authority.''
    So my question to you is both as Principle Deputy Assistant 
Secretary and now as nominee to be Assistant Secretary, what 
does that court ruling say about the policies that are being 
advanced under your tenure?
    Ms. Sarri. Senator, thank you very much for the question. 
I'm aware of the regulations. I wasn't directly involved in 
those so I maybe have higher level comments and I'm happy to 
get back to you with more information on the record, if that's 
helpful.
    Ms. Sarri. What I think BLM was attempting to do was 
provide standardization and a level playing field with a 
greater regulatory certainty around hydraulic fracturing. 
Obviously we have to have authority for the work that we're 
doing when we undertake regulations, and so we look to that as 
part of our regulatory process.
    Senator Hoeven. Why is it necessary to have duplicate 
regulations? Why not work with the states that already have 
those regulations in place? We do that in many other aspects of 
energy oversight and regulation. That is why we have SIPs, 
State Implementation Plans, when we work with Federal agencies. 
We use the practices that you have identified. Why have the 
duplicate regulation?
    Ms. Sarri. I think the effort here was where states had 
stronger regulations in place that we would look at those. But 
to actually set, kind of, a baseline or bottom line that would 
govern fracking across all states was the effort here.
    Senator Hoeven. There is not an industry sector I talked 
to, we could take energy, we could take agriculture, we could 
take manufacturing, we could take high tech, we could take 
financial services--there is not one single industry sector 
that I talked to that does not come in and they say they are 
absolutely mired in red tape and regulation and bureaucracy 
which adds tremendous cost and makes it more difficult to 
create jobs.
    So my question to you is why not work with the states in a 
primary role? They are already providing this regulation. And 
then if some state is not or does not want to oversee it 
properly then you could come in and provide that regulatory 
structure. Why not take that approach rather than duplicate 
regulation? And this goes to some of the comments that Senator 
King just made.
    Ms. Sarri. Okay. No, I appreciate that. So let me get back 
to you more specifics on hydraulic fracking.
    But overall let me just say about the regulatory approach. 
This Administration has been trying to do a regulatory look 
back across all of the departments of the Executive branch to 
get rid of duplicative and outdated regulations. It's an 
important part of our regulatory agenda.
    I think you're right. When you're looking at regulations 
you have to look at what states have and what the state role is 
and what the state has in play and the also what the Federal 
role is. And if it is something that crosses off in multiple 
state boundaries whether you actually need to have, kind of, a 
consistency that is, what is a baseline for regulations of 
which then the states can buildupon more. I actually think that 
that can create great certainty in the economy as well.
    Senator Hoeven. Earlier you said that the Department was 
willing to look at working with states that have a regulatory 
regime in place so that perhaps we could eliminate this double 
layer of bureaucracy. Are you willing to commit, if confirmed, 
that you would work with us on that approach?
    Ms. Sarri. Senator, if I'm confirmed, I would be willing to 
work with you and I'd also be willing, obviously, to sit down 
and talk with BLM on these particular issues.
    Senator Hoeven. Okay. Thank you very much.
    The Chairman. Thank you, Senator Hoeven.
    Senator Hirono, you have been very patient.
    Senator Hirono. Finally. [Laughter.]
    Save the best for last.
    Mr. Kotek, I could not help but note that you were born in 
Hawaii but that you consider Idaho your home. We in Hawaii like 
to think that anybody who has experienced Hawaii takes with 
them the Aloha spirit wherever they consider home. Lucky for 
you I do not have a question for you. [Laughter.]
    Anyway, Dr. Murray, as a supporter of the ability of small 
businesses to interact with the labs and to enhance the 
technology transfer aspects of what goes on at the labs, I am 
glad that your responses to Senator Heinrich's questions in 
this arena was one of commitment to that proposition. So I 
encourage you to continue with those efforts.
    For Dr. Kimball, thank you very much for USGS and their 
very important role in tracking the lava flow on the Big Island 
that was threatening one of our communities. We are very 
appreciative of what you all do. Thank you also for the 
opportunity to chat with you recently in my office.
    I am aware that the Department of the Interior, through the 
USGS, serves as the lead agency in the Federal Open Water Data 
Initiative. And as we know from the unfortunate drought that is 
plaguing California and the West, awareness of water 
availability, use, conservation, etcetera will become 
increasingly important in the future and of course, that also 
applies to Hawaii.
    As USGS works to collect data to supply the Open Water Data 
Initiatives and other future initiatives such as predictive 
modeling and comprehensive decision support tools that will 
help communities be responsible water users, can you highlight 
some of the ways that Congress can help USGS in completing 
these kinds of water initiatives?
    Dr. Kimball. Well thank you very much for that question, 
and I did appreciate the opportunity to speak with you about 
these issues as they affect the Hawaii and the Pacific Islands.
    I think that issues associated with water resources and 
water availability are national issues that are important, and 
I believe that the only way we can effectively address those 
issues is to bring all sectors of both government, industry and 
local and community efforts together so that we have the 
authorizations that allow us to collect the information and 
that we have the good working relationships with local and 
community groups that permit that exchange of information and 
the ability to enhance our surveys.
    One of the things that we've been working with that we 
believe has a great deal of potential is the concept of citizen 
science and bringing those communities that are dependent on 
this information into the dialog. And we really welcome the 
opportunity. And if confirmed, I would very much welcome the 
opportunity to work with you and the Committee to identify ways 
to enhance the water data collection, monitoring and 
dissemination efforts across the country.
    Senator Hirono. Thank you very much because this, as in so 
many other areas, requires a lot of collaboration at all levels 
including, as you say, the citizens, citizen scientists. I 
think that was your reference. That sounds really interesting. 
If there are things the Committee can do to enhance and support 
those collaborative efforts I certainly would want to discuss 
those with you.
    For Ms. Sarri, in your testimony you mention PMB's role in 
coordinating across businesses on policy issues such as 
invasive species management. I think you are aware that Hawaii 
is practically, maybe, the invasive species capital of the 
country because the impact, the negative impacts of invasive 
species is something that we totally understand.
    In March of this year the Department of Navy released a 
regional biosecurity plan for Micronesia and Hawaii that makes 
recommendations to the State of Hawaii, Guam, CNMI, Micronesia 
and the Marshall Islands as well as Palau. So this requires a 
lot of collaboration among the Departments of Defense, 
Agriculture, and Interior. The purpose of the report is to be 
used as a tool in coordinating across agencies to prevent, 
manage and control invasive species in the Pacific region which 
is a huge region.
    Question. Since the Department of the Interior serves as 
one of the 13 Federal departments and agency members of the 
National Invasive Species Council can you speak a bit on how 
you, as Assistant Secretary for PMB, would work within your 
Department to implement or help the jurisdictions implement 
some of the priority recommendations of the Navy's report?
    Ms. Sarri. Senator, thank you very much for your question.
    If confirmed, I would be definitely working very closely. 
Interior happens to be one of the leads of the National 
Invasive Species Council. We've been working very closely with 
Agriculture and with NOAA to, kind of, reinvigorate, I would 
say, the Council.
    And the issues that you raise and issues particularly on 
what's taking place in the Pacific are very important to 
prevent invasive species from coming into areas of the Pacific. 
But when they do get there, early detection and rapid response 
is absolutely critical. So at Interior we've been making 
additional investments in terms of looking at early detection 
and rapid response issues, prevention and education.
    I would anticipate, especially as we lead up to the World 
Conservation Congress, that the issue around invasive species 
and biosecurity in the Pacific are going to be a central issue.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chairman.
    Ms. Kendall, I would like to ask you about a report that 
your office, the Office of Inspector General, issued on the 
Office of Surface Mining's ongoing stream buffer zone 
rulemaking.
    For years Members of Congress have expressed grave concerns 
about this rulemaking. Prior to the issuance of your report the 
House held a number of hearings which examined the rulemaking 
including the jobs that would be lost as a result of the rule. 
A redacted copy of the report indicates that your office 
completed the report on February 28th of 2013, but your office 
did not release the report to the public or to Congress until 
December 20th of 2013, 10 months after your department 
completed the report. So you completed it, and then we waited 
10 months until you released it on December 20th.
    Now I would note that December 20th was the Friday right 
before Christmas. It was also three days after this Committee 
held a confirmation hearing on Janice Schneider. She was 
nominated to oversee the very office under investigation, the 
Office of Surface Mining. So you waited ten months and then you 
released it the Friday before Christmas, three days after the 
Committee held the confirmation hearing so we could not ask 
questions about it.
    The question is should it have occurred to you, since you 
are up front now for a position and confirmation, shouldn't it 
have occurred to you that the Senate and the public had an 
interest in seeing your report prior to Ms. Schneider's 
confirmation hearing and in any case, why did you wait to 
release the report until three days later?
    Ms. Kendall. Senator, I am almost embarrassed to say it. I 
don't recall the details of that delay, and I simply can't 
answer your question because I don't know. But I would be happy 
to get back to you on that. It sounds wrong. I would hope that 
there's a meaningful explanation. I'm sorry I don't have it 
here today.
    Senator Barrasso. Because I think to people that look at 
this it certainly seems like you are playing games with 
Congress. So I would love to hear back from you on that.
    I understand you did provide a copy of the report to the 
Principal Deputy Assistant Secretary for Lands and Mineral 
Management. I am also going to ask that you look into whether 
prior to December 20th you shared the report or any information 
related to the report with anyone else outside the Office of 
the Inspector General and if so, with whom? I will ask that you 
followup in writing.
    Ms. Kendall. I will do that.
    Senator Barrasso. Thank you.
    Senator Barrasso. Mr. Kotek, before joining the Department 
of Energy earlier this year you worked as a Strategic 
Consultant for the Fluor Corporation. Since 2011 the Department 
has given Fluor about $1 billion worth of publicly-owned 
uranium from its stockpile of excess uranium. In exchange Fluor 
has provided decommissioning services at the Department's 
gaseous diffusion plant in Ohio. The Government Accountability 
Office has said that these transactions violate Federal law, so 
I question whether the Department receives full evaluation for 
the uranium that it gives to this company.
    If confirmed, you will be responsible for overseeing the 
public's stockpile of excess uranium. You will play a 
significant role in determining the circumstances and 
conditions under which the Department disposes of excess 
uranium. Given your past employment by this corporation do you 
plan to recuse yourself from decisions that would benefit this 
corporation and if not, why not?
    Mr. Kotek. Thank you, sir, for the question.
    Regarding my specific involvement it had to do with a 
cleanup contract at the State of Idaho, within the State of 
Idaho.
    Regarding a specific recusal those matters are still under 
discussion within the Department right now and we'd be happy to 
get back to you when there's some determination made there.
    Senator Barrasso. So it's your position that you do not 
have a conflict of interest with respect to the decisions 
affecting the corporation?
    Mr. Kotek. Thank you, sir.
    I have been and will continue to be completely forthcoming 
with the experts in the Department who makes those 
determinations so they can give me the appropriate guidance.
    Senator Barrasso. Because I question whether the Department 
actually has received full value for the uranium that it gives 
to the corporation. The corporation did not consume the uranium 
that it receives from the Department, instead it sells the 
uranium, as you know, to another party.
    Earlier this year I called on the Department to condition 
all future transfers of uranium on the requirement that the 
company publicly disclose the terms under which it sells the 
uranium. If confirmed would you be willing to do that?
    Mr. Kotek. Thank you, sir, for the question.
    My understanding of the process is that, you know, DOE 
structures its uranium transfers in a manner that results in a 
fair market value price for the uranium. Of course, as you've 
referred, the transfers to Fluor B and W are exchanged for 
services and the value of the services that DOE receives are 
based on prevailing market prices at that time and that DOE is 
immediately credited with the value and services by the 
contractor.
    So that's the process, as I understand it. And going 
forward we'd be happy to continue to work with you and your 
staff on that matter.
    Senator Barrasso. Do you think it is an unreasonable 
request, given your past employment by the Fluor Corporation?
    Mr. Kotek. Sir, again, I think, given my particular 
situation I will work with Ethics Council inside the Department 
to understand where, you know, those things I should and should 
not be involved in and will proceed accordingly.
    Senator Barrasso. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Ms. Kimball, I want to come to you for a moment. I thank 
you for joining us in Alaska. It was some time in August, I 
forget when, but we were actually celebrating the fact that 
over half of the State of Alaska had been mapped through the 
IfSAR data. I your written testimony you state more than 63 
percent of the state has been mapped appropriately. I think at 
that time we were celebrating 53 or 57 percent. I do not know 
exactly, but I commented at the time that there are very few 
places in the country where we would be celebrating getting 
half way there. I think it speaks to the issue that we face in 
Alaska as it relates to the adequacy of our mapping and the 
need to get going yesterday.
    Thank you for your efforts to work with us. I know we have 
many in the state that appreciate that, but we also recognize 
that we have a ways to go, so I want to work with you to do 
that.
    Last year USGS announced that Afghanistan was the first 
country to be almost completely mapped using hyper spectral 
imaging data. Of course that gets your attention when we here 
in this country are trying to get ourselves mapped and we see 
that our government is supporting the full mapping of 
Afghanistan--almost completely mapped.
    Can you tell me what the status of collecting the 
hyperspectral data is here in this country and where we are 
with the status of LIDAR or Landsat eight and nine data in the 
United States and in Alaska, specifically?
    Dr. Kimball. Well, thank you for that question. It was 
quite an honor to participate in the sky breaking ceremony in 
Alaska last month.
    As far as the hyperspectral data goes we were able to map 
Afghanistan because we had received support from USAID and the 
Department of Defense to do so as part of the reconstruction 
efforts, and that allowed us to develop the software and the 
analytical tools to enable hyperspectral to be used to look at 
mineral deposits on the surface, within the soil surface, where 
we don't have surface expression for minerals.
    So we have now brought that technology home, and we are 
using it initially in Alaska to map certain areas in order to 
test that system in the kinds of conditions that we have and to 
address assessments of mineral resources in Alaska which has 
quite an enormous potential in that regard.
    The Chairman. So is that underway now?
    Dr. Kimball. Pardon me?
    The Chairman. Is that underway now?
    Dr. Kimball. I believe it has started. I will confirm that. 
I believe that it has been started.
    Dr. Kimball. And as we are able to refine those techniques 
then we will pull that technology out across the country.
    In terms of LIDAR and Landsat, we now have two Landsat 
satellites operational, Landsat 7 and Landsat 8. We're working 
very closely with NASA to move forward in the planning and the 
execution of the next Landsat mission which will be Landsat 9 
that we anticipate having launched somewhere between 2021 and 
2023.
    We are working diligently between the two agencies to 
ensure that we do not have a data gap. With two satellites in 
the air we get that information on an eight-day repeat cycle 
which is very important for many uses especially in the 
agricultural sector.
    As far as LIDAR, it continues to be a high priority for us. 
And you will see that in the Administration proposals to 
enhance and continue acquisition of LIDAR data to support the 
3D elevation program.
    The Chairman. Thank you, we appreciate your work in that 
regard.
    Ms. Sarri, I want to go back to you and followup on your 
earlier comments.
    I understand what you said about your not being involved in 
the decisions that were made by Interior either as it related 
to Shell or as it related to the announcement about not moving 
forward on the Shell extensions or also the 2016 and 2017 lease 
sales. I am perplexed though, and I do not follow why you would 
not be, I guess.
    In the Interior's press release they cite to specific items 
in light of current market conditions, low interest, low 
industry interest, DOI today announces. We were informed by the 
Under Secretary that it did not make sense for budgetary and 
resource reasons to prepare the lease sales. That was what we 
were told.
    Given that your position that you have been acting in for 
Policy, Management and Budget is specific to budgetary and 
resource purposes, I guess the real question that I have if you 
have said that you were not involved in these decisions is why 
were you not involved in these decisions if they were, in fact, 
related to budgetary and resource reasons? Further, if you 
will, did your office conduct any form of analysis of the 
economic impacts that these decisions would have on the State 
of Alaska whether it be future oil production, whether it be 
the jobs that would not be created or something else?
    Ms. Sarri. Well, Senator, as to the Assistant Secretary's 
remarks I would want to go back and ask her for some 
clarification. My understanding about the reason the decision 
was made was the lack of interest in the leases during this 
time period and then also market forces and the low energy 
prices. So my understanding is those were the drivers of it.
    The Chairman. I hope that you understand that lack of 
industry interest is not lack of interest in the resource. It 
is lack of interest in dealing with an Administration that has 
simply made it impossible for them to move forward. That is 
where the lack of interest is. I think that that needs to be 
reported back, because the interest is clearly there. But if 
you cannot meet the terms and conditions that have been set by 
the Administration for operating, what are you supposed to do?
    Ms. Sarri. Got it, understand, Senator. But I will get back 
to you. I think maybe what Secretary Schneider meant in her----
    The Chairman. It was, I am sorry, it was not Secretary 
Schneider. I do not want to get confused here.
    Ms. Sarri. Okay. I'm sorry.
    The Chairman. It was Mr. Beaudreau, who----
    Ms. Sarri. Oh, Okay, I'm sorry. I must have misunderstood 
there. I'll go back and take a look at it. I'm assuming what 
they meant was, you know, where we have shown we're working 
under a constrained budget. And if the market wasn't at this 
time necessarily supporting it. And I understand you have a 
different perspective in terms of that, that issue, then you 
would look to move some of your budgetary resources to other 
places.
    But I will make sure I get clarification and get back to 
you on the record on that particular question.
    The Chairman. Are you aware as to whether or not there was 
any assessment or analysis as to the potential impact?
    Ms. Sarri. I will also get back to you. There was not any 
assessment done by my office on this particular issue, but I 
will ask if there was an assessment done by BOEM or BSEE.
    The Chairman. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    I wanted to go back to Dr. Murray and ask about DOE's role 
in advanced materials. Obviously these are very important 
materials for lightweight manufacturing, whether used in trucks 
or airplanes. Can you speak to what we need to do to continue 
U.S. leadership on this issue and what do we need to do in the 
area of recycling of these materials as well?
    Dr. Murray. Thank you for the question.
    Yes, DOE has a major role in materials in the new 
manufacturing initiative as well as manufacturing for recycle. 
And if you look at things like 3D printing and what's called 
materials genomics which is basically looking at the properties 
of materials and making a data base and then searching the data 
base in multi-dimensions to figure out which material would 
actually work better than the one that we have all been using 
because it just happened to work when we tried it the first 
time.
    That is making materials, I will call it science, and 
materials engineering more into a science than it has been 
before. It has been very Edisonian so a company will use a 
material because it knows it works and it just doesn't want to 
bother because it takes about seven years to move a new 
material into manufacture.
    We're trying to shrink that down to, let's just say, three 
years and to look at the space of materials. And this is being 
done in the storage hubs that I was talking about earlier which 
is an Office of Science hub on novel energy storage and 
batteries.
    So they're looking at there's an anode. There's a cathode, 
and there's an electrolyte. And all of these can be, instead of 
picking one and then trying out others, look at the whole space 
of what you could do and pick out computationally what might be 
interesting projects. And then go and study them in the lab.
    And this is turning out to be quite fruitful. It's only 
fruitful because we have enough computational power and enough 
experimental expertise to be able to get the properties of the 
materials measured accurately enough.
    Senator Cantwell. Is that where the exascale computing 
comes in?
    Dr. Murray. Absolutely, that's exactly right.
    Senator Cantwell. So we need to do both.
    Dr. Murray. We need exascale for that reason in particular. 
And it will be the wonderful thing about exascale, if we can 
get to the power density, the low power density of new chips 
for the exascale computing, we will have very small exascale 
computing will fill this room, of course. We will have very 
small pedascale computers because you can just carve out a part 
of it and then you can have one in every hospital or every, for 
precision medicine or you can have one in R and D plants to do 
this materials genomics. It really is a revolution.
    Senator Cantwell. I like that word.
    How important do you think it is that we fund this research 
and development in these areas for DOE?
    Dr. Murray. Well it's spectacularly important.
    Senator Cantwell. Okay, thank you.
    And Graphene? Where would you put that?
    Dr. Murray. Graphene is really a very interesting material. 
Back when I was doing research at Bell Labs in the 1990's, 
nobody thought you could get a single layer of carbon. That was 
totally impossible.
    When, some years later, people realized that you could put 
scotch tape on graphite which is well known in battery 
materials and just pull off a single layer of carbon. And that 
is the strongest material known to man when you try to pull on 
it. And that--it's a very interesting conductor. It's not quite 
a semiconductor, but you can make it into a semiconductor.
    And it has very interesting physics properties. And it's a 
little bit hard to deal with. And it's not yet in manufacturing 
but it has started a new thought process about putting other 
two dimensional materials together. And this is where coming 
back into batteries you can create these new two dimensional 
materials by putting layers together. So it was actually a very 
important part of material science.
    Senator Cantwell. Well this shows how important material 
science is to energy solutions; that has people interested in 
the Northwest.
    Dr. Murray. Yes, absolutely.
    Materials is important to absolutely everything including, 
I will say, software because you have to run software on 
something. And that something turns out to be your exascale 
computer which you can't make unless you can understand the 
materials properties.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    Dr. Murray. Thank you.
    The Chairman. Thank you.
    I have one final question, and this is directed to you, Ms. 
Kendall.
    I will have other questions that I will submit for the 
record to you and others who have appeared before us today, but 
in the interest of time I will just ask my final one.
    You have heard comments from colleagues here regarding 
issues during your tenure, the stream protection rule or stream 
buffer rule has been mentioned a couple different times.
    This dispute between your office and the House Committee on 
Natural Resources persisted through 2014. It included your 
decision not to respond to a subpoena from the House, and to my 
knowledge that is still at a stalemate that has not been 
resolved.
    Have you taken any steps since formally referring the 
matter? What have you done in terms of referring this to the 
Secretary and then, not only what have you done in advancing 
this to the Secretary's level, but what have you done to assist 
the House Committee to receive a satisfactory response to this 
subpoena?
    Ms. Kendall. Well, as you know, Madam Chairman, last 
November I sent a memo to the Secretary referring the issue 
formally to her. Having found really nothing happening a couple 
weeks ago my counsel reached out to the Office of the 
Solicitor, with whom we've been working on this issue, urged 
them to, again, sort of, activate the issue and reconsider 
their decision to lay claim to privilege, although the word has 
not been used, as you know.
    As recently as yesterday I spoke to the Chief of Staff for 
the Secretary and urged him to ask someone from the Department 
to actively engage the House Committee on Natural Resources. 
They had said they had no outstanding request, but I am told 
that they did reach out, as of yesterday and----
    The Chairman. To the House Committee?
    Ms. Kendall. To the House Committee and we'll be engaging 
in the process of accommodation which is the precise process 
that I've been asking both sides to engage in.
    The Chairman. Thank you for that update.
    This goes to a series of questions that you and I had 
discussed when we were visiting in my office in terms of the 
role, what the law requires of the IG with respect to reports 
to Congress and whether there is an independent reporting 
obligation and then again, this independent duty to assist 
Congress.
    So again know that these are very important. I was 
interested in the direction Senator King was taking with his 
comment there about the polling data on Presidential nominees 
at this point in time, but I do think he does make a point 
about the imperative of the various IGs throughout the 
government that they maintain that level of independence, that 
they maintain that level of true impartiality here and ensuring 
that there is a commitment made to the process. That is what we 
are seeking to, kind of, call out here.
    You mentioned in your opening statement that hindsight is 
20/20 and that there may have been some situations where you 
may have done something differently or taken a different 
approach. Can you give me any indication as to which decisions, 
if any, you would have made differently and why?
    Ms. Kendall. Yes, I can, Madam Chairman.
    The one decision that I think has followed me the closest 
and the hardest was the decision to be willing to be a part of 
the Safety Oversight Board, in retrospect with the benefit of 
20/20 hindsight.
    Going forward I would do that differently. I think my 
office could have conducted the very same work that it did 
conduct without my participation on something like that Board, 
although it was in extraordinary circumstances and 
extraordinary times given a national crisis. But that is one, 
certainly, that I have rethought many times over and think 
that, although the ends may or may not justify the means, in 
the end our office did the work that needed to be done to 
review the entirety of Outer Continental Shelf oil and gas 
production.
    And I think my team did a fabulous job, a very 
comprehensive job and did it very quickly, but we could have 
done it without my participation in that Board, I believe, 
going forward.
    At the time, as I said in my testimony too, I was operating 
under the best information I had at the time and utilized in my 
best judgment. But we can always second guess decisions we've 
made.
    The Chairman. I appreciate that.
    Senator Cantwell, any followup?
    Well, thank you all. I appreciate the time that you have 
given us, and to the families that have been very patient as 
you have provided support to the six men and women in front of 
us, we thank you for being here today.
    With that, the Committee stands adjourned.
    Thank you.
    [Whereupon, at 12:40 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre></body></html>
